<html>
<title> - CHILD INTERSTATE ABORTION NOTIFICATION ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



               CHILD INTERSTATE ABORTION NOTIFICATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 748

                               __________

                             MARCH 3, 2005

                               __________

                            Serial No. 109-3

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
99-583                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  ADAM SMITH, Washington
MIKE PENCE, Indiana                  CHRIS VAN HOLLEN, Maryland
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                      STEVE CHABOT, Ohio, Chairman

TRENT FRANKS, Texas                  JERROLD NADLER, New York
WILLIAM L. JENKINS, Tennessee        JOHN CONYERS, Jr., Michigan
SPENCER BACHUS, Alabama              ROBERT C. SCOTT, Virginia
JOHN N. HOSTETTLER, Indiana          MELVIN L. WATT, North Carolina
MARK GREEN, Wisconsin                CHRIS VAN HOLLEN, Maryland
STEVE KING, Iowa
TOM FEENEY, Florida

                     Paul B. Taylor, Chief Counsel

                      E. Stewart Jeffries, Counsel

                          Hilary Funk, Counsel

                  Mindy Barry, Full Committee Counsel

           David Lachmann, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              

                             MARCH 3, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and Chairman, Subcommittee on the Constitution..     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on the 
  Constitution...................................................     2

                               WITNESSES

Mrs. Marcia Carroll, Lancaster, PA
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Mr. Richard S. Myers, Professor of Law, Ave Maria School of Law, 
  Ann Arbor, MI
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Mr. Warren Seigel, M.D., FAAP, FSAM, Director of Adolescent 
  Medicine, Chairman of Pediatrics, Coney Island Hospital, 
  Brooklyn, NY
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16
Ms. Teresa Stanton Collett, Professor of Law, University of St. 
  Thomas School of Law, Minneapolis, MN
  Oral Testimony.................................................    19
  Prepared Statement.............................................    21

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Steve Chabot, a 
  Representative in Congress from the State of Ohio, and 
  Chairman, Subcommittee on the Constitution.....................    49
Prepared Statement of the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution...............    50
Prepared Statement of the Honorable Steve King, a Representative 
  in Congress from the State of Iowa.............................    51
Prepared Statement of the Honorable Ileana Ros-Lehtinen, a 
  Representative in Congress from the State of Florida...........    51
Prepared Statement of Dr. John C. Harrison, Professor of Law, 
  University of Virginia.........................................    52
Abortion form for Ashley Carroll, signed by her doctor, Dr. Kaji 
  and materials related to Dr. Kaji and Brighan clinics submitted 
  by Chairman Steve Chabot.......................................    54

 
               CHILD INTERSTATE ABORTION NOTIFICATION ACT

                              ----------                              


                        THURSDAY, MARCH 3, 2005

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Steve Chabot 
(Chair of the Subcommittee) presiding.
    Mr. Chabot. Good afternoon. The Committee will come to 
order. This is the Subcommittee on the Constitution. I would 
like to thank everyone for being here this afternoon for this 
very important legislative hearing.
    Today, the House Constitution Subcommittee will examine 
H.R. 748, the ``Child Interstate Abortion Notification Act,'' 
commonly known as CIANA, which was recently introduced by my 
colleague, the distinguished gentlelady from Florida, 
Congresswoman Ileana Ros-Lehtinen. I would also like to thank 
Congresswoman Ros-Lehtinen for her leadership on this issue.
    CIANA's predecessor, the ``Child Custody Protection Act,'' 
also introduced by Congresswoman Ros-Lehtinen, received broad 
support, passing the House on three separate occasions, 
including the 105th, 106th, and 107th Congresses. This hearing 
is the first step in ensuring that CIANA not only passes the 
House in the 109th Congress, but this time, it is enacted into 
law.
    We have an expert panel with us here this afternoon and I 
would like to thank them for taking the time to share their 
knowledge and expertise with us.
    Obtaining an abortion is a life-altering event, as we have 
heard and seen on numerous occasions. The medical, physical, 
and emotional impact on women can be long-lasting. CIANA would 
ensure that young girls who are seeking an abortion receive the 
care and support they need by enforcing existing State parental 
notification laws and providing for a Federal notification law 
that protects parental rights when a minor crosses State lines 
into a State without a notification law.
    CIANA would make it a Federal offense to cause the 
circumvention of a valid State parental consent or notification 
law by knowingly transporting a minor across a State line with 
the intent that she obtain an abortion.
    In addition, CIANA would build on the ``Child Custody 
Protection Act'' by also requiring that an abortion provider in 
a State without a parental involvement law notify a parent, or, 
if necessary, a legal guardian before performing an abortion on 
a minor girl who is a resident of a different State. This 
requirement would be applicable unless the minor has already 
received authorization from a judge in her home State, pursuant 
to a judicial bypass procedure, or unless she falls into one of 
the carefully drafted exceptions to cover cases of abuse or 
medical emergencies.
    Statistics show that approximately 80 percent of the public 
favors parental notification laws. Forty-four States have 
enacted some form of a parental notification statute. Twenty-
three of these States currently enforce statutes that require 
the consent or notification of at least one parent or court 
authorization before a young girl can obtain an abortion. Such 
laws reflect widespread agreement that the parents of a 
pregnant minor are best suited to provide counsel, guidance, 
and support as she decides whether to continue her pregnancy or 
to undergo an abortion.
    Despite widespread support for parental involvement laws 
and clear public policy considerations justifying them, 
substantial evidence exists that such laws are regularly evaded 
by individuals who transport minors to abortion providers in 
States that do not have parental notification or consent laws.
    Confused and frightened young girls are routinely assisted 
by adults in obtaining abortions and are encouraged to avoid 
parental involvement by crossing State lines. Often, these 
girls are guided by those who do not share the love and 
affection that most parents have for their children. Personal 
accounts indicate that sexual predators recognize the advantage 
they have over their victims and use this influence to 
encourage abortions in order to eliminate critical evidence of 
their criminal conduct, and in turn, allowing the abuse to 
continue undetected.
    Furthermore, when parents are not involved in the abortion 
decisions of a child, the risks to the child's health 
significantly increase. Parental involvement will ensure that 
parents have the opportunity to provide abortion providers with 
the minor's complete medical history and necessary information 
prior to the performance of an abortion, information that may 
have life or death consequences for the minor. Parental 
involvement in the after-care of a minor's abortion procedure 
is also critical in preventing or curtailing complications, 
such as infection, perforation, or depression, which if left 
untreated can be fatal.
    Public policy is clear that parents should be involved in 
decisions that their daughters make regarding abortion. CIANA 
will assist in enforcing existing parental involvement laws 
that meet the relevant constitutional criteria and will provide 
for parental involvement when minors cross State lines to have 
abortions in States without parental involvement laws. The 
safety of young girls and the rights of parents demand no less.
    Again, I would like to thank our witnesses for being here 
today and I would now yield to the gentleman from New York, the 
Ranking Member, Mr. Nadler, for making an opening statement.
    Mr. Nadler. Thank you, Mr. Chairman.
    When we last considered this legislation, I did not believe 
that the authors could possibly come up with a bill that would 
be more dangerous, more destructive of the well-being and the 
rights of young women than last year's bill. I am humbled to 
admit that I suffered from a paucity of imagination that 
clearly does not afflict some on the other side of the aisle.
    I am really stunned by this latest crazy quilt of 
restrictions which has obviously but one purpose, to impede the 
practice of medicine, to ensure that young women will have as 
few options as possible, and to teach those States, like mine, 
New York, that do not believe the best way to promote 
adolescent health and deal with the very real problems these 
young women often experience is with draconian laws that 
prevent doctors and caring, responsible adults from helping 
these young women who may have nowhere else to turn.
    Often, that adult is a grandparent, a brother or a sister, 
or a member of the Clergy. In some cases, the young women may 
not be able to go to their parents. We all want young women to 
seek guidance and help from their parents, but sometimes, that 
may be impossible. Sometimes, indeed, the parents may pose a 
threat to the life and health of the young woman.
    That is what happened to Spring Adams, a 13-year-old from 
Idaho. She was shot to death by her father after he found out 
that she planned to terminate her pregnancy, a pregnancy that 
was caused by his acts of incest. A law that would require her 
to tell him does not seem to make much sense.
    I know that some of my colleagues might not see a problem 
forcing a doctor to ring Mr. Adams' doorbell to tell him they 
are planning to perform an abortion on his daughter. There has 
been longstanding and vigorous opposition to laws, including 
the Freedom of Access to Clinic Entrances Act, which aim to 
protect doctors and their patients from possibly violent 
fanatics.
    This bill also uses an overly-narrow definition of medical 
emergency, one that seems to have been lifted from one of 
Attorney General Gonzales's infamous torture memos. Quote, 
``The prohibition of Subsection (a) does not apply if the 
abortion was necessary to save the life of the minor because 
her life was endangered by a physical disorder, physical 
injury, or physical illness, including a life-endangering 
physical condition caused by or arising from the pregnancy 
itself,'' close quote.
    This clearly falls far short of the Supreme Court's 
requirement that any restriction on the right to choose must 
have an explicit exception to protect the life and an explicit 
exception to protect the health of the woman. There are many 
things that threaten the health of a woman that fall far short 
of endangering her life. The only health threat recognized here 
is a life-endangering health threat. A health threat that 
doesn't endanger her life but may be a severe one is not 
recognized in this exception, and yet, clearly, that is 
necessary to salvage the constitutionality of this bill under 
the Supreme Court decisions, if anybody cares about the 
constitutionality of this bill.
    There are many things, as I said before, far short of death 
that threatens a young woman. She deserves prompt and 
professional medical care and the Constitution still protects 
her right to receive that care.
    Congress should not be tempted to play doctor. It is always 
bad medicine for women.
    We want to encourage families to work together to face 
difficult situations and we want to provide young women facing 
these life-altering decisions with all the help that we can. In 
an ideal world, loving, supportive, and understanding families 
would join together to face these challenges. That is what 
happens in the majority of cases, with or without a law.
    But we do not live in a perfect world. Some parents are 
violent. Some parents are rapists. Some young people can turn 
to their Clergy, to a grandparent, a sibling, or some other 
trusted adult who do not feel safe in turning to a parent. We 
should not turn these people into criminals simply because they 
are trying to help a young woman in a dire situation.
    This bill is the wrong way to deal with a very real 
problem.
    There is also one other major concern with this bill. This 
bill attempts to say, at least in the provision that was in 
last year's bill that makes it illegal to, quote, ``transport a 
minor across State lines for the purpose of getting an 
abortion,'' unquote, if she doesn't need parental consent or 
notification in the State where she will get it but she did in 
the State she is leaving, this tries to use the power of the 
Federal Government to put the law of the State which she is 
leaving on her back and make her carry it with her to a 
different State.
    I know of no other law which, in effect, uses the power of 
the government to enforce the law of one State in the 
boundaries of another State which has not chosen to have that 
law. The only other law I can think of that does that is a law 
that was enacted sometime ago called the ``Fugitive Slave 
Act'', and that was repealed by subsequent history.
    I want to join the Chairman in welcoming our witnesses and 
I look forward to hearing their testimony. Thank you. I yield 
back.
    Mr. Chabot. Thank you.
    Are there other Members that would like to make opening 
statements? If not, I will introduce the panel of witnesses 
here this afternoon, and we do have a very distinguished panel.
    Our first witness today is Ms. Marcia Carroll, a mother 
from Pennsylvania who will share with us her own experience 
surrounding her minor daughter's abortion.
    Our second witness is Richard Myers, Professor of Law at 
Ave Maria School of Law. Among other courses, Professor Myers 
teaches Constitutional Law, Federal Jurisdiction, first 
amendment, and Conflict of Laws. Prior to joining the Ave Maria 
faculty, Professor Myers taught at Case Western Reserve 
University School of Law and the University of Detroit Mercy 
School of Law. Professor Myers began his legal career by 
clerking for Judge John Kilkenny of the United States Court of 
Appeals for the Ninth Circuit. Professor Myers also worked for 
Jones, Day, Reavis and Pogue in several cases before the United 
States Supreme Court, and so we welcome you here this 
afternoon.
    Our third witness is Dr. Warren Seigel. Dr. Seigel is the 
Chairman of Pediatrics and the Director of Adolescent Medicine 
at Coney Island Hospital in Brooklyn, New York. In addition to 
Coney Island Hospital, Dr. Seigel is affiliated with Maimonides 
Medical Center, Lutheran Medical Center, the Brooklyn Hospital 
Center, the New York Methodist Hospital, and Wyckoff Heights 
Medical Center. Dr. Seigel also serves as the president of the 
New York State Chapter, District 2, of the American Academy of 
Pediatrics and is a Society for Adolescent Medicine Fellow. We 
welcome you here, Dr. Seigel.
    Our final witness is Professor Teresa Stanton Collett. From 
1990 to 2003, Professor Collett was a Professor of Law at South 
Texas College of Law, where she taught various legal courses. 
Since 2003, she has served as a Professor of Law at University 
of St. Thomas College of Law, teaching bioethics, property, and 
professional responsibility. Professor Collett has also served 
as a visiting professor at Notre Dame Law School, Washington 
University School of Law in St. Louis, the University of Texas 
School of Law, the University of Houston Law Center, and the 
University of Oklahoma College of Law. Prior to joining South 
Texas College of Law, Professor Collett was affiliated with the 
law firm of Crow and Dunleavy in Oklahoma City, Oklahoma.
    We welcome all our witnesses here this afternoon. It is the 
practice of this Committee to swear in all witnesses----
    Mr. Nadler. Before we do, Mr. Chairman----
    Mr. Chabot. Yes?
    Mr. Nadler. Mr. Chairman, I want to join you in welcoming 
in particular Dr. Seigel, who is the Director of Adolescent 
Medicine and Chair of Pediatrics at Coney Island Hospital, 
which is in my district in Brooklyn and just a short walk away 
from my Brooklyn district office. Dr. Seigel founded the 
Division of Adolescent Medicine at Coney Island Hospital. He 
also serves as the Director of Adolescent Medicine at 
Maimonides Children's Medical Center, at Methodist Hospital, 
and at Lutheran Medical Center. How he finds time to serve at 
all these medical centers escapes me, but some people use their 
time better than some of us. All of these are outstanding 
medical institutions serving the people of the fourth largest 
city in America, namely the City of Brooklyn.
    He is a respected authority on the care and treatment of 
young people, especially adolescents. He has worked in our 
community facing the real problems of real people every day. I 
believe his perspective will help inform this Committee's work, 
and I am pleased to join you in welcoming him.
    Mr. Chabot. I am sure that all the other witnesses will 
also be able to inform the Committee, as well, and we welcome 
your introduction.
    It is the practice of this Committee, as I mentioned, to 
swear in the witnesses, so if you would all please stand and 
raise your right hands.
    Do you swear that the testimony that you are about to give, 
that you will tell the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mrs. Carroll. I do.
    Mr. Myers. I do.
    Dr. Seigel. I do.
    Ms. Collett. I do.
    Mr. Chabot. Thank you. You can be seated.
    Without objection, all Members will have five legislative 
days with which to submit additional materials for the record.
    As you probably know, you have been familiarized by our 
staff, but each witness will have 5 minutes to testify before 
the Committee. There are a couple of lights there on your desk. 
The green light will be on until 4 minutes have elapsed, at 
which time the yellow light will come on. It tells you that you 
have 1 minute to come up, and then the red light will come on 
and we appreciate that you wrap up your testimony. We will give 
you a little leeway, but not too much because we are on a 
relatively tight schedule.
    We will begin with you, Mrs. Carroll.

           TESTIMONY OF MARCIA CARROLL, LANCASTER, PA

    Mrs. Carroll. Good afternoon. My name is Marcia Carroll and 
I am from Lancaster, Pennsylvania, and I would like to begin by 
thanking you for inviting me here to speak and to share my 
family's story. The following is a horrifying series of events 
centered around my 14-year-old daughter.
    On Christmas Eve 2004, my daughter informed me that she was 
pregnant. I assured her that I would seek out all resources and 
help that was available. As a parent, her father and I would 
stand beside her and support any decision she made.
    We scheduled appointments with her pediatrician, her 
private counselor, and her school nurse. I followed all their 
advice and recommendations. They referred us to Healthy 
Beginnings Plus, Lancaster Family Services, and the WIC 
program. They discussed all her options with her. I purposely 
allowed my daughter to speak alone with professionals so that 
she would speak her mind and not just to say what she thought I 
wanted to hear.
    My daughter chose to have the baby and raise it. My family 
fully supported my daughter's decision to keep her baby and 
offered her our love and support.
    Subsequently, her boyfriend's family began to harass my 
daughter and my family. They started showing up at our house to 
express their desire for my daughter to have an abortion. When 
that did not work, his grandmother started calling my daughter 
without my knowledge. They would tell her if she kept the baby, 
she couldn't see her boyfriend again. They threatened to move 
out of the State.
    I told his family that my daughter had our full support in 
her decision to keep the baby. She also had the best doctors, 
counselors, and professionals to help her through the 
pregnancy. We all had her best interests in mind.
    The behavior of the boy's family began to concern me to the 
point where I called my local police department for advice. 
Additionally, I called the number for an abortion center to see 
how old you have to be to have an abortion in our State.
    I felt safe when they told me my minor daughter had to be 
16 years of age in the State of Pennsylvania to have an 
abortion without parental consent. I found out later that the 
Pennsylvania Abortion Control Act actually says that parental 
consent is needed for a minor under 18 years of age. It never 
occurred to me that I would need to check the laws of other 
States around me. I thought as a resident of the State of 
Pennsylvania that she was protected by Pennsylvania State laws. 
Boy, was I ever wrong.
    On February 16, I sent my daughter to her bus stop with two 
dollars of lunch money. I thought she was safe at school. She 
and her boyfriend even had a prenatal class scheduled after 
school.
    However, what really happened was that her boyfriend and 
his family met with her down the road from her bus stop and 
called a taxi. The adults put the children in the taxi to take 
them to the train station. His stepfather met the children at 
the train station, where he had to purchase my daughter's 
ticket, since she was only 14. They put the children on the 
train from Lancaster to Philadelphia. From there, they took two 
subways to New Jersey. That is where his family met the 
children and took them to the abortion clinic, where one of the 
adults had made the appointment.
    When my daughter started to cry and have second thoughts, 
they told her they would leave her in New Jersey. They planned, 
paid for, coerced, harassed, and threatened her into having the 
abortion. They left her alone during the abortion and went to 
eat lunch.
    After the abortion, his stepfather and grandmother drove my 
daughter home from New Jersey and dropped her off down the road 
from our home. My daughter told me that on the way home, she 
started to cry. They got angry at her and told her there was 
nothing to cry about.
    Anything could have happened to my daughter at the abortion 
facility or on the ride back home. These people did not know my 
daughter's medical history, yet they took her across State 
lines to have a medical procedure without my knowledge or 
consent. Our family will be responsible for the medical and 
psychological consequences for my daughter as a result of this 
procedure that was completed unbeknownst to me.
    I was so devastated that this could be done that I called 
the local police department to see what could be done. They 
were just as shocked and surprised as I was that there was 
nothing that could be done in this horrible situation.
    The State of Pennsylvania does have a parental consent law. 
Something has to be done to prevent this from happening to 
other families. This is just not acceptable to me and should 
not happen to families in this country. If your child goes to 
her school clinic for a headache, a registered nurse cannot 
give her a Tylenol or Aspirin without a parent's written 
permission.
    As a consequence of my daughter being taken out of State 
for an abortion without parental knowledge, she is suffering 
intense grief. My daughter cries herself to sleep at night and 
lives with this every day.
    I think about what I could have or should have done to keep 
her safe. Everybody tells me I did everything I could or should 
have done. It doesn't make me feel any better, knowing 
everything I did was not enough to protect my daughter.
    It does ease my mind to know that, with your help, we can 
make a difference and change the law to protect other girls and 
their families. I urge your support for the ``Child Interstate 
Abortion Notification Act''. It is critical that this law 
passes in Congress. The rights of parents to protect the health 
and welfare of their minor daughters needs to be protected. No 
one should be able to circumvent State laws by performing an 
abortion in another State on a minor daughter without parental 
consent.
    Thank you for your time.
    Mr. Chabot. Thank you very much, Mrs. Carroll.
    Mrs. Carroll. Thank you.
    [The prepared statement of Mrs. Carroll follows:]

                  Prepared Statement of Marcia Carroll

    Good afternoon, my name is Marcia Carroll. I am from Lancaster, 
Pennsylvania. I would like to begin by thanking you for inviting me 
here to speak and share my family's story. The following is a 
horrifying series of events centered around my fourteen year old 
daughter.
    On Christmas Eve 2004, my daughter informed me she was pregnant. I 
assured her I would seek out all resources and help that was available. 
As her parents, her father and I would stand beside her and support any 
decision she made.
    We scheduled appointments with her pediatrician, her private 
counselor, and her school nurse. I followed all of their advice and 
recommendations. They referred us to Healthy Beginnings Plus, Lancaster 
Family Services, and the WIC program. They discussed all her options 
with her. I purposefully allowed my daughter to speak alone with 
professionals so that she would speak her mind and not just say what 
she thought I wanted to hear.
    My daughter chose to have the baby and raise it. My family fully 
supported my daughter's decision to keep her baby and offered her our 
love and support.
    Subsequently, her boyfriend's family began to harass my daughter 
and my family. They started showing up at our house to express their 
desire for my daughter to have an abortion. When that did not work, his 
grandmother started calling my daughter without my knowledge. They 
would tell her that if she kept the baby, she couldn't see her 
boyfriend again. They threatened to move out of state.
    I told his family that my daughter had our full support in her 
decision to keep the baby. She also had the best doctors, counselors, 
and professionals to help her through the pregnancy. We all had her 
best interests in mind.
    The behavior of the boy's family began to concern me to the point 
where I called my local police department for advice. Additionally, I 
called the number for an abortion center to see how old you have to be 
to have an abortion in our state.
    I felt safe when they told me my minor daughter had to be 16 years 
of age in the state of Pennsylvania to have an abortion without 
parental consent. I found out later that the Pennsylvania Abortion 
Control Act actually says that parental consent is needed for a minor 
under 18 years of age. It never occurred to me that I would need to 
check the laws of other states around me. I thought as a resident of 
the state of Pennsylvania that she was protected by Pennsylvania state 
laws. Boy, was I ever wrong.
    On Feb. 16th, I sent my daughter to her bus stop with $2.00 of 
lunch money. I thought she was safe at school. She and her boyfriend 
even had a prenatal class scheduled after school.
    However, what really happened was that her boyfriend and his family 
met with her down the road from her bus stop and called a taxi. The 
adults put the children in the taxi to take them to the train station. 
His stepfather met the children at the train station, where he had to 
purchase my daughter's ticket since she was only fourteen. They put the 
children on the train from Lancaster to Philadelphia. From there, they 
took two subways to New Jersey. That is where his family met the 
children and took them to the abortion clinic, where one of the adults 
had made the appointment.
    When my daughter started to cry and have second thoughts, they told 
her they would leave her in New Jersey. They planned, paid for, 
coerced, harassed, and threatened her into having the abortion. They 
left her alone during the abortion and went to eat lunch.
    After the abortion, his stepfather and grandmother drove my 
daughter home from New Jersey and dropped her off down the road from 
our house.
    My daughter told me that on the way home she started to cry, they 
got angry at her and told her there was nothing to cry about.
    Anything could have happened to my daughter at the abortion 
facility or on the ride back home. These people did not know my 
daughter's medical history, yet they took her across state lines to 
have a medical procedure without my knowledge or consent. Our family 
will be responsible for the medical and psychological consequences for 
my daughter as a result of this procedure that was completed 
unbeknownst to me.
    I was so devastated that this could have been done that I called 
the local police department to see what could be done. They were just 
as shocked and surprised as I was that there was nothing that could be 
done in this horrible situation.
    The state of Pennsylvania does have a parental consent law. 
Something has to be done to prevent this from happening to other 
families. This is just not acceptable to me and should not happen to 
families in this country. If your child goes to her school clinic for a 
headache, a registered nurse can't give her a Tylenol or aspirin 
without a parent's written permission.
    As a consequence of my daughter being taken out of our state for an 
abortion without parental knowledge, she is suffering intense grief. My 
daughter cries herself to sleep at night and lives with this everyday.
    I think about what I could or should have done to keep her safe. 
Everybody tells me I did everything I could have and should have done. 
It doesn't make me feel any better, knowing everything I did was not 
enough to protect my daughter.
    It does ease my mind to know with your help that we can make a 
difference and change the law to protect other girls and their 
families. I urge your support for The Child Interstate Abortion 
Notification Act. It is critical that this law passes in Congress. The 
right of parents to protect the health and welfare of their minor 
daughters needs to be protected. No one should be able to circumvent 
state laws by performing an abortion in another state on a minor 
daughter without parental consent.
    Thank you for your time.

    Mr. Chabot. Professor Myers, you are recognized for 5 
minutes.

       TESTIMONY OF RICHARD S. MYERS, PROFESSOR OF LAW, 
             AVE MARIA SCHOOL OF LAW, ANN ARBOR, MI

    Mr. Myers. Thank you, Mr. Chairman. My name is Richard 
Myers. I have been teaching and writing about constitutional 
law for nearly 20 years. I am currently a professor at Ave 
Maria School of Law in Ann Arbor, Michigan. I am also President 
of University Faculty for Life. My testimony is on my 
individual behalf and doesn't necessarily reflect the position 
of my employer or any other organization.
    I am pleased to have been invited to address the 
constitutional issues raised by H.R. 748. I have been asked to 
address two constitutional questions. One, is the act a proper 
exercise of one of Congress's enumerated powers, and two, does 
the act violate principles of Federalism, perhaps by endorsing 
the view that States may legislate in an extra-territorial 
manner?
    First, it is basic constitutional law that Congress only 
has enumerated powers, but despite recent cases affirming that 
there are some judicially enforceable limits on the scope of 
the Commerce power, this act is well within Congressional 
authority. These recent cases, Lopez and Morrison, have dealt 
with Congressional efforts to reach non-economic local activity 
under the theory that the local activity had a substantial 
effect on interstate commerce.
    These recent developments, however, do not raise any 
concern about whether the act is within the Congressional power 
to regulate commerce among the several States. The Court has 
long affirmed that Congressional power to prohibit 
transportation of items of interstate commerce. To transport 
another person across State lines is to engage in commerce 
among the States and is thus within Congressional power to 
regulate such commerce.
    In Darby and other cases, the Supreme Court has clearly 
established that this power doesn't depend on Congress 
legislating in furtherance of the policy of the destination 
State. Moreover, the motive and purpose of a regulation of 
interstate commerce are matters for the legislative judgment, 
upon the exercise of which the Constitution places no 
restriction and over which the courts are given no control.
    The abortion notification portion of the act is also a 
proper exercise of the Commerce power. Although this portion of 
the act doesn't focus on transporting a minor across State 
lines, this portion of the act is clearly a regulation of an 
economic transaction. The many court cases upholding the 
constitutionality of the ``Freedom of Access to Clinic 
Entrances Act'' make it clear that the abortion industry is a 
major interstate industry that Congress may properly regulate. 
Some lower court cases have probably pushed Congressional 
authority too far in this area, but surely, recent cases such 
as Lopez and Morrison create no obstacle to Congressional 
regulation of the clearly economic side of the abortion 
industry.
    The second area I would like to focus on deals with the 
arguments that this Act violates principles of federalism, in 
large part because it allegedly permits a State to legislate in 
an extraterritorial manner. As Congressman Nadler mentioned, 
some critics say that what this does is force a woman to carry 
the restrictive laws of her home State on their backs as they 
go to new States.
    It seems clear that if you look at the testimony, for 
example, by Professor Rubin last summer, that this objection is 
principally driven by opposition to the substantive vision of 
the act, that is, the idea of protecting the rights of parents 
to be involved in the decisions that profoundly affect their 
children, and that the objection is not so much to the 
understanding of federalism that is presented. If one focuses--
if one removes the negative labels, and keep in mind that the 
transportation portions of the act simply are designed to 
prevent the evasion of the law of the minor's home State, then 
it seems clear that the Act reinforces a proper conception of 
federalism.
    The basic idea to prevent people from evading the laws of 
the home States when the home State is attempting to advance 
entirely properly objectives that are at the core of its 
sovereign authority is quite common. Strangely, the critics of 
this position adopt a strict territorial view of State power 
that was characteristic of American legal thought in the late 
19th and early 20th century, but has been largely abandoned.
    The same sort of mistaken objection has recently been made 
in the area of marriage. So some modern critics argue that it 
is unconstitutional for a State to refuse to recognize a 
marriage that is valid under the law of the State of 
celebration. Such a refusal, these critics say, is supposedly 
an unconstitutional effort to extend the regulatory reach of 
the couples' home State. Yet even in the absence of Federal 
law, like the ``Defense of Marriage Act'', this type of State 
policy, refusing to recognize a marriage that evades the law of 
the couples' home State, has long been regarded as appropriate, 
for hundreds of years in this country. The proper principles of 
federalism and longstanding law support a State's authority to 
avoid evasion of its laws.
    This is even more secure when we are not dealing simply 
with a State law that is being interpreted to apply when some 
of the relevant events take place outside the State. Here, of 
course, we are dealing with proposed Federal law, and as 
Professor Mark Rosen testified last year before Congress, the 
Federal Government is the appropriate entity of government to 
umpire these conflicts between State regulatory authority.
    Moreover, there is no right to travel problem presented by 
the Act. Most of the arguments here, I think, are simply not 
applicable.
    I see my time is up. I don't know if I--I can just conclude 
that----
    Mr. Chabot. You can wrap it up, if you would like to.
    Mr. Myers. The right to travel argument, I think, is just 
completely a misnomer. The only objection that has any cogency 
at all is that the Supreme Court has said that the right of 
travel protects the right of a citizen of one State to be 
treated as a welcome visitor rather than unfriendly alien when 
they travel to another State.
    But this component of the right to travel simply has no 
application here. This is protected by article IV of the 
Constitution and it really deals with discrimination against a 
citizen of a State simply because of their place of origin. It 
is designed to prevent States from having unreflective bias 
against out-of-Staters based on their place of origin. This act 
doesn't do that at all. What it is designed to do is to allow 
States to further the substantive policy of the home State, and 
so a destination State here has a reason to treat the minor 
differently, not simply because of their place of origin, but 
to reinforce the law of their home State. And so the right to 
travel argument doesn't have any application at all.
    Thank you very much.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Myers follows:]

                 Prepared Statement of Richard S. Myers

    I am pleased to have been invited to address the constitutional 
issues raised by H. R. 748, the Child Interstate Abortion Notification 
Act (hereinafter ``Act''). I have been asked to address two 
constitutional questions: (1) is the Act a proper exercise of one of 
Congress's enumerated powers, and (2) does the Act violate principles 
of federalism, perhaps by endorsing the view that states may legislate 
in an extraterritorial manner.
    First, ``[t]he Constitution creates a Federal Government of 
enumerated powers.'' United States v. Lopez, 514 U. S. 549, 552 (1995). 
But despite recent cases affirming that there are judicially 
enforceable limits on the scope of the commerce power, see, e.g., 
Lopez, United States v. Morrison, 529 U. S. 598 (2000), the Act is well 
within Congressional authority. These recent cases have dealt with 
Congressional efforts to reach noneconomic local activity under the 
theory that the local activity had a substantial effect on interstate 
commerce. The scope of these limits on Congressional power is currently 
before the Supreme Court. See Raich v. Ashcroft, 352 F. 3d 1222 (9th 
Cir. 2003), cert. granted, 124 S. Ct. 2909 (2004).
    These recent developments do not, however, raise any concern about 
whether the Act is within Congressional power to regulate commerce 
among the several states. The Court has long affirmed Congressional 
power to prohibit interstate transportation of items of commerce. 
United States v. Darby, 312 U. S. 100 (1941); Champion v. Ames, 188 U. 
S. 321 (1903). To transport another person across state lines is to 
engage in commerce among the states and is, thus, within Congressional 
power to regulate such commerce. Cleveland v. United States, 329 U. S. 
14 (1946); Caminetti v. United States, 242 U. S. 470 (1917); Hoke v. 
United States, 227 U. S. 308 (1913).
    The landmark case of United States v. Darby, 312 U.S. 100 (1941), 
makes this point clear. In Darby, the Court made it clear that 
Congressional power ``extends not only to those regulations which aid, 
foster and protect the commerce, but embraces those which prohibit 
it.'' 312 U. S. at 113. In Darby and in other cases, the Court has 
clearly established that this power does not depend on Congress 
legislating in furtherance of the policy of the destination state. As 
the Darby Court stated: ``The power of Congress over interstate 
commerce . . . can neither be enlarged nor diminished by the exercise 
or non-exercise of state power. Congress, following its own conception 
of public policy concerning the restrictions which may appropriately be 
imposed on interstate commerce, is free to exclude from the commerce 
articles whose use in the states for which they are destined it may 
conceive to be injurious to the public health, morals or welfare, even 
though the state has not sought to regulate their use.'' Id. at 114 
(citations omitted). The Court was willing to sustain the federal law 
involved even on the assumption that Congress was primarily concerned 
about the local activity and not the interstate transport itself. As 
the Darby Court stated: ``The motive and purpose of a regulation of 
interstate commerce are matters for the legislative judgment upon the 
exercise of which the Constitution places no restriction and over which 
the courts are given no control.'' Id. at 115.
    Moreover, as John Harrison stated in his testimony on a prior bill 
prohibiting interstate transport of a minor to evade the parental 
involvement law in the minor's home state: ``This legislation, unlike 
the child labor statute at issue in Hammer v. Dagenhart, does not rest 
primarily on a congressional policy independent of that of the State 
that has primary jurisdiction to regulate the subject matter involved. 
Rather, in legislation like this Congress would be seeking to ensure 
that the laws of the State primarily concerned, the State in which the 
minor resides, are complied with. In so doing Congress would be dealing 
with a problem that arises from the federal union, not making its own 
decisions concerning local matters such as domestic relations or 
abortion.'' Hearing on H.R. 1755 (The Child Custody Protection Act) 
before the Subcommittee on the Constitution of the Committee on the 
Judiciary, House of Representatives, 108th Congress, 2d Session 51 
(July 20, 2004)(statement of John C. Harrison).
    The abortion notification portion of the Act is also a proper 
exercise of the commerce power. Although this portion of the Act does 
not focus on transporting the minor across state lines, this portion of 
the Act is a regulation of an economic transaction. The many court 
cases upholding the constitutionality of the Freedom of Access to 
Clinic Entrances Act (FACE) make it clear that the abortion industry is 
a major interstate industry that Congress may properly regulate. Some 
lower court cases have probably pushed Congressional authority too far, 
see United States v. Bird, 2005 U.S. App. LEXIS (%th Cir. February 28, 
2005); Norton v. Ashcroft, 298 F. 3d 547 (6th Cir. 2002), cert. denied, 
537 U. S. 1172 (2003); United States v. Gregg, 226 F. 3d 253 (3d Cir. 
2000), cert.denied, 523 U. S. 971 (2001), by upholding FACE even when 
noncommercial activity was involved, but surely recent cases such as 
Lopez and Morrison create no obstacle to Congressional regulation of 
the clearly economic side of the abortion industry.
    Second, opponents of this law contend that it is inconsistent with 
principles of federalism, in large part because it allegedly permits a 
state to legislate in an extraterritorial manner. This objection was 
set forth by Peter Rubin in his testimony before the Senate Judiciary 
Committee in June 2004. He stated: ``The proposed law amounts to a 
statutory attempt to force a most vulnerable class of young women to 
carry the restrictive laws of their home states strapped to their 
backs, bearing the great weight of those laws like the bars of a prison 
that follows them wherever they go (unless they are willing to go 
alone). Such a law violates the basic premises upon which our federal 
system is constructed. . . . [According to Rubin,] the proposition that 
a state may not project its laws into other states by following its 
citizens there is bedrock in our federal system.'' The Child Custody 
Protection Act: Protecting Parents' Rights and Children's Lives: 
Hearing on S. 851 before the Senate Committee on the Judiciary, 108th 
Congress, 2d Session 2-3 (June 3, 2004)(statement of Peter J. Rubin).
    It seems clear that opposition to the substantive vision of the Act 
(that is, to protect the rights of parents to be involved in decisions 
that profoundly affect their children) is driving much of this 
analysis. It is important and more conducive to a sound analysis of the 
relevant constitutional principles to remove the negatives labels and 
to keep in mind that the transportation portions of the Act simply are 
designed to prevent the evasion of the law of the minor's home state. 
As others have explained, so understood this Act reinforces a proper 
conception of federalism.
    This point was well-expressed by Mark Rosen in his testimony before 
this Subcommittee in July 2004. He stated: ``one of the great benefits 
of federalism is that with respect to policies that are not foreclosed 
by the Federal constitutional law or Federal statutory law, there can 
be diversity of approaches that States take, and when you have a law 
that by its nature can readily be circumvented through travel, as 
parental notification laws can be, then a Federal statute that helps to 
ensure the efficacy of constitutional policies does not undermine 
federalism, but helps to enhance the diversity across States with 
regard to policies that they're able to pursue.'' Hearing on H. R. 1755 
(The Child Custody Protection Act) before the Subcommittee on the 
Constitution of the Committee on the Judiciary, House of 
Representatives, 108th Congress, 2d Session 10 (July 20, 
2004)(statement of Mark D. Rosen). See Mark D. Rosen, 
Extraterritoriality and Political Heterogeneity in American Federalism, 
150 U. Pa. L. Rev. 855 (2002).
    The basic idea--to prevent people from evading the laws of their 
home states when the home state is attempting to advance entirely 
proper objectives that are at the core of its sovereign authority--is 
quite common. Strangely, the critics adopt a strict territorial view of 
state power that was characteristic of American legal thought in the 
late 19th century and the early 20th century, but has been largely 
abandoned. The same sort of mistaken objection has recently been made 
in the area of marriage. So, some modern critics, most of whom are not 
experts in the relevant field of law, argue that it is unconstitutional 
for a state to refuse to recognize a marriage that is valid under the 
law of the state of celebration. Such a refusal is, supposedly, an 
unconstitutional effort to extend the regulatory reach of the couples' 
home state. Yet, even in the absence of federal law, such a state 
policy--that is, to refuse to respect the couples' efforts to evade the 
law of their home state--has long been regarded as appropriate. For 
discussion of this issue, see Richard S. Myers, The Public Policy 
Doctrine and Interjurisdictional Recognition of Civil Unions and 
Domestic Partnerships, 3 Ave Maria L. Rev. (2005)(forthcoming); Richard 
S. Myers, Same-Sex ``Marriage and the Public Policy Doctrine, 32 
Creighton L. Rev. 45 (1998).
    It is quite clear that the real objection is not to a proper 
understanding of the constitutional principles underlying our system of 
federalism but, rather, to the substantive policy implicated. So, 
critics of the standard view that states are permitted to refuse to 
recognize marriages that violate the strong public policy of the 
couples' home state are, it seems safe to say, primarily driven by 
their opposition to the substantive policies of the states with a 
traditional view of marriage, even if that traditional view enjoys 
widespread public support, perhaps evidenced by the policy having been 
adopted by wide majorities of the voting populations in these states. 
In the context presented here today, the same dynamic seems at work. 
The real opposition to the Act is not to its understanding of 
federalism but to the substantive policy (promoting parental 
involvement in the decision by a minor whether to have an abortion) 
that the legislation seems designed to permit states to pursue.
    States that have the requisite contacts to the individuals and/or 
the events involved are permitted to apply their own law. We see this 
even in the area of contracts where a respect for private ordering has 
long-standing support in our legal traditions. Even here, states do not 
allow individuals blanket authority to evade the laws of a state that 
is competent to legislate on the matter under review. Travel to a state 
with different law or drafting a choice of law clause to select law 
that is desired by the parties do not invariably result in successful 
evasion. A forum state will reject such an attempt when the other 
state's law is contrary to the fundamental policy of the state whose 
law the parties are attempting to avoid. This outcome is reflected in 
the Restatement (Second) of Conflict of Laws section 187 (1971) and in 
the laws of nearly every state. See Myers, 3 Ave Maria L. Rev. 
(2005)(forthcoming); Myers, 32 Creighton L. Rev. at 52-55.
    These principles are quite basic and are quite commonly accepted. 
As the current debate about the interjurisdictional recognition of 
same-sex ``marriages'' and quasi-marital statuses indicates, these 
principles are challenged when opponents' principal objection is to the 
substantive policy of the state whose law is being evaded. But basic 
principles of federalism and long-standing law support a state's 
authority to avoid evasion of its laws.
    This is even more secure when we are not dealing simply with a 
state law that is being interpreted to apply when some of the relevant 
events take place outside the state. Here, of course, we are dealing 
with a proposed federal law, and as Mark Rosen stated, ``[a]s a 
structural matter, a federal government that umpires the sister states' 
regulatory powers vis-a-vis one another is eminently sensible, and 
several constitutional provisions . . . empower Congress to serve that 
function.'' Rosen Statement, supra, at 15.
    Moreover, there is no ``right to travel'' problem presented by the 
Act. The Supreme Court has recently considered the right to travel in a 
case, Saenz v. Roe, 526 U. S. 489 (1999), that seems to have been given 
rather limited scope by subsequent cases. In any event, Saenz v. Roe 
does not suggest that the Act is constitutionally infirm. Saenz 
explained that there are three components to the ``right to travel'' 
recognized by the Supreme Court. The first component, the right to 
enter and leave a sister State is not at all implicated by the Act. See 
Rosen Statement, supra, at 15. The third component, the right of a new 
citizen to be treated the same as other citizens of the State, is not 
at all implicated either because the Act deals with situations where 
the minor has not changed her state citizenship. The second component 
of the right to travel, the right to be treated as a welcome visitor 
rather than an unfriendly alien, is not violated by the Act. This 
second component of the right to travel is protected by the Privileges 
and Immunities Clause of Article IV of the Constitution. This Clause 
prevents ``discrimination against citizens of other States where there 
is no substantial reason for the discrimination beyond the mere fact 
that they are citizens of other States. But it does not preclude 
disparity of treatment in the many situations where there are perfectly 
valid independent reasons for it.'' Toomer v. Witsell, 334 U. S. 385, 
396 (1948). The kind of discrimination that is constitutionally suspect 
is discrimination against out-of staters, simply because of their place 
of origin. That is not at all what the Act attempts to reinforce. The 
Act is not trying to affirm unreflective bias against non-citizens; 
rather, the Act is designed to aid states in their efforts to have 
important substantive policies with regard to their residents followed. 
Because there is, then, a reason (defined by the law of the minor's 
home state) apart from the minor'status as an out-of stater to treat 
the minor differently, the presumption against discrimination is not at 
all implicated. See Myers, 32 Creighton L. Rev. at 56-59 (discussing 
this issue in the context of interjurisdictional recognition of same-
sex ``marriages'').
    In conclusion, the two constitutional questions I have reviewed do 
not present any significant obstacle to passage of the Act. The Act is 
well within the scope of Congressional authority and is perfectly 
consistent with principles of federalism. Those who oppose this Act 
would be well-advised to focus their attention on the substance of the 
legislation.

    Mr. Chabot. Dr. Seigel, you are recognized.

   TESTIMONY OF WARREN SEIGEL, M.D., FAAP, FSAM, DIRECTOR OF 
   ADOLESCENT MEDICINE, CHAIRMAN OF PEDIATRICS, CONEY ISLAND 
                     HOSPITAL, BROOKLYN, NY

    Dr. Seigel. Good afternoon. Thank you to Chairman Chabot, 
Ranking Member Nadler, and Members of the Subcommittee on the 
Constitution for allowing me to appear before you today.
    My name is Dr. Warren Seigel. I am Director of Adolescent 
Medicine and Chair of Pediatrics at Coney Island Hospital. I 
also serve, as has already been noted, as the Director of 
Adolescent Medicine at various institutions in Brooklyn. I am 
board certified in both pediatrics and adolescent medicine, and 
among my other medical association involvements, I am currently 
the President of the New York State Chapter 2, District 2, of 
the American Academy of Pediatrics.
    I am submitting testimony today as a resident of New York 
State, an experienced health care provider, a leader in the 
American Academy of Pediatrics and the Society for Adolescent 
Medicine, and a member of Physicians for Reproductive Choice 
and Health, known as PRCH. PRCH is a national nonprofit 
organization created to enable concerned physicians to take a 
more active and visible role in supporting universal, evidence-
based reproductive health. PRCH is committed to ensuring that 
all people have the knowledge, access to quality services, and 
freedom of choice to make their own reproductive health 
decisions.
    I submit this testimony to you today on behalf of the PRCH 
Board of Directors and our more than 6,500 physician and non-
physician members to express our opposition to H.R. 748, known 
as the ``Child Interstate Abortion Notification Act,'' or 
CIANA. This bill puts young women's lives at risk. It makes 
criminals out of caring physicians. And it affects the care of 
all patients.
    I recognize that parents ideally should be, and indeed 
usually are, involved in health decisions regarding their 
children. However, the ``Child Interstate Abortion Notification 
Act'' does nothing to promote such communication. Instead, 
CIANA places incredible burdens on young women and physicians, 
infringes on the rights of adolescents to health care that does 
not violate their safety and health, makes caring family, 
friends, and doctors criminals, and could be detrimental to the 
health and emotional well-being of all patients.
    As a pediatrician, I believe CIANA will create 
insurmountable obstacles for adolescents. Young women seeking 
abortions in a State other than their home State will be forced 
to comply with the parental notification laws in both States. 
They will also have to navigate through the complex and 
emotionally draining judicial bypass procedure in both States. 
This will cause delays that may be harmful to the young woman's 
health by forcing her to undergo a later-term procedure.
    The American Medical Association states that a delay in 
receiving care will, quote, ``increase the gestational age at 
which the induced pregnancy termination occurs, thereby also 
increasing the risk associated with the procedure,'' unquote. 
Requiring adolescents to comply with laws in more than one 
State will certainly increase the delay in receiving care.
    CIANA also requires parental notification for young women 
receiving abortions in States where they are not permanent 
residents. Young women who are not trying to circumvent 
parental notification laws but are, in fact, living temporarily 
in a State for college or boarding school or other reasons will 
need to seek the care that is closest to them. CIANA would 
prohibit these women from the most accessible health care 
available to them.
    Women from States with no parental notification legislation 
face an additional burden. Even if a young woman is not subject 
to any parental notification laws in either the State where she 
is from or the State where she is accessing care, CIANA will 
require parental notification. Thus, in States with no parental 
notification legislation, young women will not have access to 
the judicial bypass option, either.
    When judicial bypass is available, however, the delays it 
may cause are compounded by a mandatory delay period of at 
least 24 hours, which is required by CIANA. Mandatory delay 
periods create additional expenses for both young women and 
their families, requiring overnight stays in hotels and missed 
days from work or school.
    As I mentioned previously, young women as a population are 
already more likely to seek abortion later in their pregnancy. 
The Centers for Disease Control have shown that adolescents 
obtain 30 percent of all abortions performed after the first 
trimester, and younger women are more likely to obtain 
abortions at 21 weeks or more gestation. Mandatory delays will 
only serve to increase these trends.
    CIANA also requires a mandatory delay even if a parent is 
present and consenting. If this legislation is about parental 
notification, then what is the purpose of this delay if not to 
keep women from accessing the care that they need in a timely 
manner?
    I am also concerned that CIANA places extreme and 
unreasonable burdens on physicians and the other patients they 
treat. Physicians will be required to have detailed knowledge 
of the parental notification laws in the 49 States where they 
do not even practice. It is already time consuming to keep up 
with the laws of my own State. What this proposed legislation 
doesn't take into account is the amount of time it is going to 
take for physicians to go out and earn a law degree. If I were 
required to keep up to date on the complex and often changing 
laws of the other 49 States, it would severely cut into the 
time that I could spend giving quality care to my other 
patients. The impossibility of this effort means that although 
I will in good faith try to obey the law, I face being 
criminalized for inadvertently violating this burdensome and 
ridiculous requirement.
    I see my time is up. May I sum up?
    Mr. Chabot. Yes, go ahead and sum up, Doctor.
    Dr. Seigel. Thank you. Physicians will be required in some 
cases to travel to the home State of young women to give 
notification in person to the parents. This means seeing the 
young women, leaving the practice to travel to another State to 
provide in-person notice, returning to the practice, and then 
performing the procedure, all this for one patient. What 
becomes of all the other patients seeing their physician for 
other health care issues during this time? This requirement 
will not only increase the delay for the procedure, but is 
simply impossible for a physician to carry out, thereby denying 
a young woman her right to an abortion.
    The American Academy of Pediatrics is a national medical 
organization representing the 60,000 physician leaders in 
pediatrics, of which I am a proud member and leader. We have 
adopted the following statement regarding mandatory parental 
notification, and I quote, ``Adolescents should be strongly 
encouraged to involve their parents and other trusted adults in 
decisions regarding pregnancy termination, and the majority of 
them voluntarily do so. Legislation mandating parental 
involvement does not achieve the intended benefit of promoting 
family communication, but it does increase the risk of harm to 
the adolescent by delaying access to appropriate medical 
care,'' unquote.
    This legislation will decrease the ability of physicians to 
provide quality care to all of their patients by immersing them 
in legal questions, travel time, and mandatory delay purposes. 
It is for all of these reasons that we must protect the rights 
of young women to access safe, affordable, and appropriate 
health care. We must make it easier for physicians to provide 
medical services, not make it more difficult.
    As a physician, I believe that this legislation represents 
bad medicine and places politics before the health of our 
youth. Leading medical organizations and scientific evidence 
overwhelmingly agree that this legislation would negatively 
impact the health of adolescents. It is for this reason that I 
appear in opposition to H.R. 748. Thank you.
    Mr. Chabot. Thank you.
    [The prepared statement of Dr. Seigel follows:]

                  Prepared Statement of Warren Seigel

    Thank you to Chairman Chabot, Ranking Member Nadler, and members of 
the Subcommittee on the Constitution for allowing me to appear before 
you today.
    My name is Dr. Warren Seigel. I am Director of Adolescent Medicine 
and Chair of Pediatrics at Coney Island Hospital, where I founded the 
Division of Adolescent Medicine. I also serve as the Director of 
Adolescent Medicine at Maimonides Children's Medical Center, Methodist 
Hospital and Lutheran Medical Center. I am Board certified in both 
Pediatrics and Adolescent Medicine and, among my other medical 
association involvement, am currently the President of New York State 
Chapter 2--District II of the American Academy of Pediatrics.
    I am submitting testimony today as a resident of New York State, an 
experienced health care provider, a leader in the American Academy of 
Pediatrics and the Society for Adolescent Medicine and a member of 
Physicians for Reproductive Choice and Health(r), or PRCH. PRCH is a 
national non profit organization created to enable concerned physicians 
to take a more active and visible role in supporting universal, 
evidence-based reproductive health. PRCH is committed to ensuring that 
all people have the knowledge, access to quality services and freedom 
of choice to make their own reproductive health decisions.
    I submit this testimony to you today on behalf of the PRCH Board of 
Directors and our more than 6,500 physician and non-physician members 
to express our opposition to H.R. 748, known as the Child Interstate 
Abortion Notification Act, or CIANA. This bill puts young women's lives 
at risk, makes criminals out of caring physicians, and affects the care 
of all patients.
    I recognize that parents ideally should be--and usually are--
involved in health decisions regarding their children. However, the 
Child Interstate Abortion Notification Act does nothing to promote such 
communication. Instead, CIANA places incredible burdens on both young 
women and physicians; infringes on the rights of adolescents to health 
care that does not violate their safety and health; makes caring 
family, friends and doctors criminals; and could be detrimental to the 
health and emotional well-being of all patients.
    As a pediatrician, I believe CIANA will create insurmountable 
obstacles for adolescents. Young women seeking abortions in a state 
other than their home state will be forced to comply with the parental 
notification laws in both states. They will also have to navigate 
through the complex and emotionally draining judicial bypass procedure 
in both states. This will cause delays that may be harmful to the young 
woman's health by forcing her to undergo a later-term procedure. The 
American Medical Association states that a delay in receiving care will 
``increase the gestational age at which the induced pregnancy 
termination occurs, thereby also increasing the risk associated with 
the procedure.'' Requiring adolescents to comply with laws in more than 
one state will certainly increase the delay in receiving care.
    CIANA also requires parental notification for young women receiving 
abortions in states where they are not permanent residents. Young women 
who are not trying to circumvent parental notification laws but are, in 
fact, living temporarily in a state for college, boarding school or 
other reasons will need to seek the care that is closest to them. CIANA 
would prohibit these women from the most available health care.
    Women from states with no parental notification legislation face an 
additional burden. Even if a young woman is not subject to any parental 
notification laws in either the state where she is from or the state 
where she is accessing care, CIANA will require parental notification. 
Judicial bypass procedures only exist in states with parental 
notification laws in place. Thus, in states with no parental 
notification legislation, young women will not have access to the 
judicial bypass option.
    When judicial bypass is available, the delays it may cause are 
compounded by a mandatory delay period of at least 24 hour, which is 
required by CIANA. Mandatory delay periods create additional expenses 
for both young women and their families, requiring overnight stays in 
hotels and missed work or school. As mentioned previously, delaying the 
abortion procedure may increase the health risk for the young woman. 
Additionally, young women as a population are already more likely to be 
seeking abortion later in their pregnancy. The Centers for Disease 
Control have shown that adolescents obtain 30% of all abortions 
performed after the first trimester, and younger women are more likely 
to obtain abortions at 21 weeks or more gestation. Mandatory delays 
will only serve to increase these trends. CIANA also requires a 
mandatory delay even if a parent is present and consenting. If this 
legislation is about parental notification, then what is the purpose of 
this delay if not to keep young women from accessing the care that they 
need in a timely manner?
    I am also concerned that CIANA places extreme and unreasonable 
burdens on physicians and the other patients they treat. Physicians 
will be required to have detailed knowledge of the parental 
notification laws in the 49 states where they do not practice. It is 
already time consuming to keep up with the laws of my own state. What 
this proposed legislation doesn't take into account is the amount of 
time it is going to take for physicians to get law degrees. If I were 
required to keep up-to-date on the complex and often changing laws of 
the other 49 states, it would severely cut into the time that I could 
spend giving quality care to my other patients. The impossibility of 
this effort means that although I will in good faith try to obey the 
law, I face being criminalized for inadvertently violating this 
burdensome and ridiculous requirement.
    Physicians will be required in some cases to travel to the home 
state of the young woman to give notification in person to the parents. 
This means seeing the young woman, leaving their practice to travel to 
another state to provide in-person notice, returning to their practice, 
and then performing the procedure--all this for just one patient. What 
becomes of all the other patients seeing their physician for other 
health care issues during this time? This requirement will not only 
increase the delay for the procedure but is simply impossible for a 
physician to carry out, thereby denying a young woman her right to an 
abortion.
    This bill will grind medical practices to a halt, thereby affecting 
all types of care that all patients are receiving. Additionally, this 
legislation does not propose any standards or procedures for inter-
state reporting, and will place heavy bureaucratic burdens on 
physicians who are trying to comply with the law. CIANA makes it 
impossible for a physician to perform an abortion without neglecting 
the care of other patients, and is clearly not about protecting young 
women but simply and blatantly about ending access to abortions--
period.
    This legislation contains an inadequate exception to protect a 
young woman's life and no exception to protect her health. This is 
unconstitutional according to Supreme Court decisions in Roe v. Wade, 
Planned Parenthood v. Casey and Stenberg v. Carhart. CIANA does not 
take into account psychological factors that may threaten a woman's 
life and will not consider an exception where her health is concerned.
    Although this legislation is supposedly aimed at increasing parent-
child communication, the government cannot mandate healthy families 
and, indeed, it is dangerous to attempt to do so. Research has shown 
that the overwhelming majority of adolescents already tell their 
parents before receiving an abortion. In fact, the younger the woman 
is, the more likely she is to tell her parent. The American Academy of 
Pediatrics, a national medical organization representing the 60,000 
physician leaders in pediatric medicine--of which I am a member and 
leader--has adopted the following statement regarding mandatory 
parental notification:

        Adolescents should be strongly encouraged to involve their 
        parents and other trusted adults in decisions regarding 
        pregnancy termination, and the majority of them voluntarily do 
        so. Legislation mandating parental involvement does not achieve 
        the intended benefit of promoting family communication, but it 
        does increase the risk of harm to the adolescent by delaying 
        access to appropriate medical care (emphasis added).

    It is important to consider why a minority of young women cannot 
inform their parents. The threat of physical or emotional abuse upon 
disclosure of the pregnancy to their parents or a pregnancy that is the 
result of incest make it impossible for these adolescents to inform 
their parents. Under CIANA, young women would be forced to put 
themselves in dangerous situations in order to receive medical care.
    Young women have many reasons for needing to travel out of state to 
have an abortion. Eighty-seven percent of U.S. counties have no 
abortion provider. In some states, there is only one provider 
available. In cases like these, the nearest abortion provider may be in 
another state. Financially, an abortion may be more affordable at a 
facility in another state. As I mentioned before, an adolescent may be 
temporarily residing in another state and need local care. CIANA 
penalizes young women for seeking the closest and most affordable 
health care.
    This legislation will decrease the ability of physicians to provide 
quality care to all of their patients by immersing them in legal 
questions, travel time and mandatory delay periods. Increasing these 
penalties will have the added effect of decreasing the number of 
adolescents that seek health care for any reproductive health need. 
Mandatory, burdensome and confusing legislation may lead to an 
increased distrust of the physicians who must now enforce this 
legislation. In addition to minimizing care for all other patients, 
this may lead to decreased access of contraceptives, later term 
abortions among a population already having later abortions and an 
increase in illegal or self-induced abortions--all of which are 
detrimental to a young woman's health.
    Physicians for Reproductive Choice and Health(r) is in absolute 
agreement with leading medical organizations on this issue. The 
American Medical Association, the American College of Obstetricians and 
Gynecologists, the American College of Physicians and the American 
Public Health Association all oppose mandatory parental-involvement 
laws because they endanger the health of adolescents and pose undue 
burdens on physicians. Additionally, the American Academy of Pediatrics 
and the Society for Adolescent Medicine have opposed similar 
legislation, entitled the Child Custody Protection Act, currently under 
consideration in the Senate as S. 8, because of the harm it may cause 
adolescents.
    It is for all of these reasons that we must protect the rights of 
young women to access safe, affordable and appropriate health care. We 
must make it easier for physicians to provide needed services, not more 
difficult. As a physician, I believe that this legislation represents 
bad medicine and places politics before the health of our youth. 
Practicing physicians and scientific evidence overwhelmingly agree that 
this legislation would negatively impact the health of adolescents. It 
is for this reason that I appear in opposition to H.R. 748.

                               APPENDIX:

Council on Scientific Affairs, American Medical Association. Induced 
    termination of pregnancy before and after Roe v. Wade: trends in 
    the mortality and morbidity of women. JAMA 1992;268:3231-3239.

American Academy of Pediatrics, Committee on Adolescence. The 
    adolescent's right to confidential care when considering abortion. 
    Pediatrics.1996;97:746-751.

Elam-Evans LD, Strauss LT, Herndon J, Parker WY, Bowens SV, Zane S, et 
    al. Abortion surveillance--United States, 2000. MMWR CDC Surveill 
    Summ 2003;52(SS-12):1-32.

    Mr. Chabot. Our final witness this afternoon will be 
Professor Collett. You are recognized.

    TESTIMONY OF TERESA STANTON COLLETT, PROFESSOR OF LAW, 
    UNIVERSITY OF ST. THOMAS SCHOOL OF LAW, MINNEAPOLIS, MN

    Ms. Collett. Mr. Chairman, Representative Nadler, Members 
of the Committee, thank you for the opportunity to appear.
    I am in support of CIANA for a number of reasons, but 
primarily it is because I believe that the widespread consensus 
represented by the number of States that have through their 
elected representatives come to the conclusion that parents 
should be involved in the decision of their minor daughters 
concerning the obtaining of an abortion is something that 
should be reinforced by Federal law.
    As you can see by the map that has been prepared from the 
Council for State Legislatures, the vast majority of States in 
this country have either parental notice or parental consent 
laws. There are only a tiny minority of States that have not 
chosen legislatively to enact such protection. This law 
furthers the will of the people on this issue.
    Mr. Chabot. Professor, could you point out what the colors 
are there as far as what they represent?
    Ms. Collett. Certainly, Mr. Chairman. The blue States 
indicate States that have parental consent laws. The red States 
indicate States that have parental notification laws. The 
purple States are States that indicate either parental notice 
or parental consent. Now, I would actually disagree with the 
classification of Oklahoma and Connecticut, but I drew this off 
of the Council for State Legislatures website. The white States 
have not enacted laws, but you can see that they constitute 
only six States in the Union at this point in time. Oklahoma's 
law is actually an abortion liability law, not a parental 
consent or notification law, as the Tenth Circuit has defined 
it.
    In addition to that, you will see that the majority of 
abortion providers and abortion advocacy groups throughout this 
country refer to the fact that a substantial minority of minors 
will voluntarily involve their parents in the decision to 
obtain abortions. When you look at the sources they cite on 
that, they actually cite a study that was done by Stanley K. 
Henshaw and Kathryn Kost. Stanley K. Henshaw is the demographer 
for the Guttmacher Institute, which is Planned Parenthood's 
research affiliate. It is a 1992 article and he says that 61 
percent of all minors will voluntarily involve a parent absent 
a parental involvement law. He indicates that this was based on 
a survey of 1,500 unmarried minors, which was a nationally 
representative sample.
    In fact, when you look at the actual article, it did not 
involve any minors from States that had parental involvement 
laws at the time, of which there were 21 States at that point 
in time. Therefore, none of the minors involved in the survey 
actually were subject to a law. In addition to that, he did not 
survey the parents of these minors, so we simply had self-
reporting. So the survey itself is not particularly reliable.
    But the real example of experimenter bias or researcher 
bias of this particular survey is the only thing he asked these 
minors were, what were the adverse effects of this particular 
parental involvement? The number one adverse effect that the 
minors indicated for parental involvement, by 40 percent, was 
increase of parental stress. Now, I would suggest that, in 
fact, that could equally be indicative of good parenting as 
opposed to bad parenting. It also indicated that another 
adverse effect, according to 14 percent of the respondents, was 
that the minor was no longer allowed to interact with the 
individual who had impregnated her. Again, I think whether that 
is an adverse effect is one that is subject to diverse 
judgments.
    He also discloses that of those minors who indicated that 
there was individuals involved, 95 percent said that their 
mothers were involved. Ninety-nine percent indicated that an 
adult was involved. But 53 percent of those under 15 said no 
adult was involved, but where only an adult was involved and no 
parent was involved, a significant number indicated that a 
boyfriend was involved in deciding or arranging for the 
abortion. Ninety-three percent of those 15 and under said that 
the boyfriend was involved. Seventy-six percent indicated that 
the boyfriend helped pay for the abortion. Clearly, a number of 
the young girls who obtain abortions without their parents' 
knowledge were encouraged to do so by a boyfriend who could be 
charged with statutory rape.
    One of the substantial State interests that backs CIANA is, 
in fact, to help States protect minors from statutory rape. In 
addition to that, Mr. Chairman and Members of the Committee, 
the Congress has looked at the problem of teenage pregnancy and 
studies have consistently shown that adolescent pregnancies are 
often the result of impregnation by men who are at least 5 
years older than the minor who is impregnated. One study of 
46,000 pregnancies by school-age girls in California showed 
that 71 percent, or over 33,000, were fathered by adult post-
high school men whose mean age was 22.6 years, an average of 5 
years older than the mothers. Even among junior high school 
girls, the men were six to 7 years their senior.
    Clearly, there is substantial State interest and there is 
substantial consistency among the States in the Union that 
parents should be involved. CIANA is both constitutional and is 
consistent with sound public policy.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much, Professor.
    [The prepared statement of Ms. Collett follows:]

              Prepared Statement of Teresa Stanton Collett


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chabot. And now, the Members will have 5 minutes to ask 
questions and I yield myself 5 minutes for that purpose.
    Mrs. Carroll, I will begin with you, if I can. I first of 
all just want to say that it is my clear opinion that you did 
everything you could under the existing law to protect your 
daughter, so there is no way that you are in any way 
responsible for this as far as I am concerned.
    But let me ask you, do you think it is dangerous for young 
girls to be coerced into having an abortion by adults who may 
be trying to protect their own interests rather than the 
interests of the pregnant girl? For example, as a parent, is 
there information that you would have shared with the doctor, 
and did the clinic sufficiently ensure that your daughter would 
receive follow-up care?
    Mrs. Carroll. No, they didn't. She received one piece of 
paper that said that she needed to make an appointment in 2 
weeks for post-care with the blanks left open. They did not 
schedule that. When I did take her to her OB, he asked if there 
was a paper that they wanted sent in to clarify that she did 
get post-care and she said, no, there was nothing that was 
given.
    Mr. Chabot. Do you think it is dangerous for a young girl 
to----
    Mrs. Carroll. Yes. They had no idea--they didn't know if 
she was allergic to anything, what her medical history was. 
They had no clue about anything.
    Mr. Chabot. Okay.
    Mrs. Carroll. She told me that they talked to her for about 
5 minutes and that was it.
    Mr. Chabot. And you said your daughter is still going 
through difficulties psychologically with respect to this?
    Mrs. Carroll. Yes.
    Mr. Chabot. Thank you. Professor Myers, let me ask you, 
would you please discuss the similarities between CIANA and the 
``Mann Act'' or other acts of Congress in which Congress has 
similarly utilized its Commerce Clause authority.
    Mr. Myers. The Mann Act is a good example. That is just one 
of many instances where Congress has used its authority to 
regulate commerce. Clearly, transporting people across State 
lines has been interpreted as commerce among the several States 
and Congress has been viewed as well within its authority to 
achieve objectives that might undermine State laws by 
transporting people to a State for immoral purposes or other 
purposes that Congress objects to.
    Here, what the Congress's basic objective seems to me is to 
try to reinforce the views of the home States, and in that 
sense, I think it is even clearer that it is permissible under 
the ``Mann Act'' line of cases.
    Mr. Chabot. Thank you. Dr. Collett, let me ask you a 
question. Dr. Seigel had stated in his written testimony, I 
think also said this orally, that, quote, ``under CIANA, young 
women would be forced to put themselves in dangerous situations 
in order to receive medical care,'' unquote. But that is not 
really accurate, is it? CIANA clearly does not require parental 
notification in cases, for example, of abuse or neglect. What 
are your views about the points that Dr. Seigel made in that 
area?
    Ms. Collett. Well, in fact, the bill has an express 
exception for a situation where the minor is willing to sign a 
written statement that she is a victim of sexual abuse, 
neglect, or physical abuse, and where the physician will notify 
the authorities specified to receive reports of child abuse.
    In fact, in Manning v. Hunt, the Fourth Circuit 
specifically dealt with a similar requirement where judges in 
judicial bypass proceedings were required to report where a 
minor was seeking a bypass on the basis of potential abuse and 
the court said that the only people that would benefit from not 
having a reporting duty would be the potential abuser.
    It is very similar to the case out in Arizona where Planned 
Parenthood accepted a young girl who was being sexually 
assaulted by her foster brother. She was impregnated. They 
secretly gave her an abortion, notified no one in the 
household, gave her the abortion, sent her back into the 
household. She was sexually assaulted again. She became 
pregnant a second time and was sent back for the second 
abortion. Finally, it was revealed, and they were sued and held 
civilly liable for the failure to report under the Arizona 
laws.
    This has got an exemption, but it is a very sensible 
exemption that requires the physician to report.
    Mr. Chabot. Thank you. Dr. Seigel, with the time I have 
remaining, you stated in your written testimony that under 
CIANA, minors will be forced to comply with parental 
notification laws and judicial bypass provisions in both her 
home State and the State where the abortion is to be performed, 
but that is not correct.
    CIANA's first part penalizes a transporter who seeks to 
circumvent a State parental involvement law. It imposes no 
obligations on the minor. The second part of CIANA places a 
duty only on those abortion providers in States that do not 
have parental involvement laws, and if a minor presents the 
abortion provider with a court order she obtained from her own 
State court allowing her to bypass the parental involvement 
law, then the abortion provider does not have to give parental 
notice. So the bill simply doesn't require a minor to comply 
with multiple judicial bypass procedures. Do you disagree?
    Dr. Seigel. I believe CIANA is detrimental to all patients. 
I think we are putting burdens on the patient, the young woman 
who needs to get adequate medical care.
    The fact of the matter is, communication is already 
happening, and I would like to just take a moment, if I may, to 
express my disappointment in the medical community. I wanted to 
say to Mrs. Carroll that I am very sorry about what I heard 
happen to her daughter. It is an example of how the medical 
community has let you down, your daughter down, and your entire 
family.
    I am concerned that when physicians are burdened with 
legalities, we will wind up spending more time learning about 
the legalities and the changing legalities of our laws and not 
spend the time that a physician should have spent with your 
daughter.
    Mr. Chabot. My time is expired, but I would just, in 
response to that, say that it would seem that it wouldn't be 
particularly difficult to have a chart that would show the 
States in the surrounding area, what the laws are. It would 
seem that is the least that one should do when you are 
considering something as significant as terminating the unborn 
child that that girl is carrying, so----
    Dr. Seigel. My understanding is it is not as simple as the 
color----
    Mr. Chabot. We obviously just have to agree to disagree on 
that, and my time is expired.
    I will now recognize the gentleman from New York.
    Mr. Nadler. Thank you. Let me ask Professor Myers, in the 
situation, the very unfortunate situation described by Mrs. 
Carroll, forgetting CIANA, I counted about five different 
crimes there--harassment, stalking, interstate kidnapping, 
conspiracy, assault. Don't you think in that situation that 
there were a number of crimes committed and that the real 
problem, or that a real problem--maybe not the only one--is not 
the absence of this bill but the absence of prosecution and 
enforcement of existing law?
    Mr. Myers. I think you are right that it sounds like there 
were many other violations. I think one of the problems with 
the remedies you suggest, prosecution, is they are after the 
fact, so that doesn't help her daughter----
    Mr. Nadler. Well----
    Mr. Myers.--and it doesn't help Mrs. Carroll----
    Mr. Nadler. Enforcement of this bill would also be after 
the fact. It is always after the fact. Enforcement of any law 
has to be after the fact.
    Mr. Myers. I think you could--I would hope we could assume 
that the physicians, as Dr. Seigel said, would try to comply 
with the law, and if they made an effort to provide notice in 
this situation, it would have helped to protect Mrs. Carroll's 
daughter. It seems like in that situation, if we are trying to 
protect the choice of young women, that that would be one way 
to further it----
    Mr. Nadler. But you would agree that----
    Mr. Myers.--requiring notice.
    Mr. Nadler.--the police told Mrs. Carroll that there was 
nothing they could do in the situation. They are probably 
wrong. They should have, or the D.A. or somebody should have 
initiated enforcement of criminal law at that point.
    Mr. Myers. I think it sounds like that there were 
violations ongoing, that there were other things that could 
have been done. In this situation, if----
    Mr. Nadler. Thank you very much.
    Mr. Myers.--they had required notice----
    Mr. Nadler. I only have 5 minutes, so thank you very much.
    Dr. Seigel, you have already expressed in your opinion that 
the doctors did the wrong thing. Talk about, for a moment, and 
then I have another question for you, the real world situation, 
not in this extreme situation, but of young women who cannot 
confide in their parents, or feel they cannot confide in their 
parents, who are not being, in effect, kidnapped by somebody 
else, who seek the help of a brother or sister or grandmother 
or member of the clergy or someone to help them. Do we see 
those situations now? Are those real situations? Are they more 
common or less common than this sort of thing?
    Dr. Seigel. Well, the truth is that they are uncommon. They 
are uncommon. The vast majority of adolescents do speak to 
their parents, not just about abortion. When a girl comes in--
we are just speaking about young women today. When a girl comes 
in and I speak to her and it is related to pregnancy and there 
is an issue about whether she is going to terminate, have an 
abortion, my responsibility as a health care provider is to 
encourage her telling her parent, and if she feels unsafe, it 
is my responsibility to find out why she is unsafe. Is she 
being sexually abused at home? Is she worried about physical 
abuse at home? Is she worried about emotional abuse at home?
    I will tell you a very quick story, since you know New 
York. We have a large immigrant population, and one of my first 
patients, an arrival from Honduras, had been in New York for 
about a year. She came in under the guise of coming in just for 
a school physical. In the course of my history taking, I 
realized that she hadn't had a period in two or 3 months. A 
pregnancy test was positive and I gave her her options and she 
told me that she wanted to have an abortion but she could not 
tell her parents because she said they were devout Catholics 
and good girls just don't do this in our country.
    I gave her some scenarios that I could tell her mother with 
her in the room or she could tell her mother with me in the 
room, but that I would protect her from physical harm. She was 
concerned that her father would beat her up. And, in fact, she 
did allow me to tell her mother with her in the room, and as 
soon as I told the mother that her daughter was pregnant, she 
got up to hit her, and luckily my reflexes were faster 15 years 
ago and I was able to stop that from happening.
    This is real world stuff, and the things that these girls 
are worried about occurs every day. Again, it is a minority. 
The vast majority of my patients do say, yes, this is 
important, after I explain to them this is a surgical procedure 
and if there is a problem after, somebody needs to know. 
Somebody needs to drive you to the hospital. Somebody needs to 
bring you home. But sometimes it is not the parent that is the 
perfect person to let in on this difficult situation.
    Mr. Nadler. Thank you. Let me ask the last question. The 
health exception in this bill, which says you don't have to--
the health exception is only for life-threatening conditions. 
Is that, from your knowledge of the state of the law now, the 
Stenberg decision and others, is that anywhere close? Or let me 
ask Professor Myers. Unfortunately, we don't have--on our side, 
we were only permitted one-quarter of the witnesses. We don't 
have a lawyer here, a sympathetic lawyer, but let me ask 
Professor Myers--not sympathetic to my point of view.
    How can you justify when the Stenberg case of the Supreme 
Court clearly said you have to have both a life and health 
exception to allow this sort of, these requirements in a bill 
in order to render it constitutional, this is clearly only with 
life-threatening. How can this possibly be constitutional?
    Mr. Chabot. The gentleman's time has expired, but you can 
answer the question.
    Mr. Myers. It seems to me from looking at the Supreme Court 
cases is that when the Court insists on a life and health 
exception, a broader health exception, as you suggest, they are 
in situations where the law actually prevents somebody from 
getting an abortion. In these situations, what we are talking 
about are notice provisions that the Court has been much more 
sympathetic to and has upheld in virtually every case because 
the Court takes the view that a notice, unlike a veto or some 
other law that tries to actually ban abortions in certain 
circumstances, doesn't really present a burden on the woman. At 
least, that is how the courts evaluate it. So I would say that 
the broader health exception isn't necessary under the Supreme 
Court cases.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Arizona, Mr. Franks, is recognized for 5 
minutes.
    Mr. Franks. Thank you, Mr. Chairman.
    Mrs. Carroll, notwithstanding the expertise and the erudite 
knowledge of the rest of the panel here, it seems to me that 
your testimony is one of first-hand knowledge, and it is always 
a very powerful thing when someone who has actually experienced 
a circumstance is able to speak to the issue. For my part, I 
just express a sincere gratitude to you for having the courage 
to come before this Committee. I know it can't be easy to come 
before a Congressional Committee, and yet it seems easy to 
examine the motivations for being here. You know, this was your 
daughter. This is your daughter that was taken without your 
permission----
    Mrs. Carroll. Yes, sir.
    Mr. Franks.--in a sense, exploited and really abused for 
someone else's purpose. It seems that oftentimes we forget that 
sometimes abortion is done not for a young girl, but to a young 
girl by a man for the sake of another man.
    Mrs. Carroll. Right.
    Mr. Franks. I just, again, express my encouragement to you 
for being willing to come down and do this. I know it is not 
only protecting your own daughter, but the hope that, somehow, 
this will protect a mother in the future from having to go 
through what you went through.
    I guess my question to you is, with all of the heartache 
and the loss of your grandchild and the abuse of your child, 
what have been the long-term effects, if any, on your daughter 
at this point? What is her state of mind now? Do you think she 
suffers from any of the--that this has had a negative long-term 
effect on her?
    Mrs. Carroll. Well, it happened not too long ago, but she 
does suffer. She has gone to counseling for this. I just know 
that she cries and she wishes that she could redo everything, 
relive that day over. It is just sad that it had to happen this 
way and this is how she had to, you know, this is what she had 
to go through. But she did want me to come here today and speak 
on her behalf, because she said, ``Mom, just one phone call was 
all it would have taken to stop this from happening to another 
girl,'' and I said, yes, just one phone call. And so she asked 
me to come here just for her sake and for other girls' safety 
to speak and let you know what was happening.
    There are going to be long-term effects, and she 
understands that. But I let her know that everything will be 
all right eventually and that she can overcome any obstacle and 
just to be strong. God will get us through this.
    Mr. Franks. You said that maybe one phone call could have 
made the difference in her case. Do you think that that would 
indicate that maybe if this law had been in place at the time, 
that it would have either been a deterrent to those taking your 
daughter across State lines or would have been in her own mind? 
Do you think it could have helped----
    Mrs. Carroll. Yes, I think it could have, because when they 
came to my house one time, I asked them to please stop coming 
by and stop harassing us and they told me they weren't 
harassing us, that they had spoken to a lawyer. So I am sure 
that they had help on how to get by the laws of our State, 
because I told them, I said, well, if you have spoken to a 
lawyer, then you can sign away all your rights and you won't be 
bothered again and then you won't have to bother us any more. 
And it is just--I know that one phone call would have saved 
her. She told me that she was the only--she was the youngest 
girl in there, she thought, and she was the only one crying, 
and nobody questioned that, really, you know.
    Mr. Franks. I just again reiterate my gratitude to you and 
just respect for you----
    Mrs. Carroll. Thank you.
    Mr. Franks.--because it was kind of difficult, I am sure, 
to hear some of the arguments that are made in opposition to 
something like this. I mean, sometimes we just have got to open 
our eyes and put all of the nonsense aside and say, what are we 
really talking about here? We are talking about parents----
    Mrs. Carroll. Right.
    Mr. Franks.--whose children are taken without their 
permission across the State line to have another child killed, 
and it is astonishing to me that somehow we are so erudite and 
so sophisticated that we miss that basic, fundamental, 
undeniable point. It is beggars' comprehension.
    Mrs. Carroll. Right.
    Mr. Franks. But yet you have had the courage to see above 
all that and I encourage you and wish you the best for your 
daughter and for your future.
    Mrs. Carroll. Thank you.
    Mr. Franks. Thank you.
    Mr. Chabot. The gentleman's time has expired.
    I would note for the panel, both here and down there, that 
light over there is apparently on the blink. This light is 
still functioning over here.
    The gentleman from Virginia, Mr. Scott, who was kind enough 
to come to my district recently and we had, I thought, an 
excellent hearing there, a field hearing, and so I want to 
thank him again for making that trip and sorry that we had 
weather here and your flight got canceled and everything, but I 
understand you got back home. I am not taking your time here, 
by the way, in my rambling. [Laughter.]
    Even though he and I may disagree on this issue, I have a 
great amount of respect for him. Now you can disregard 
everything he says from here on. [Laughter.]
    Just kidding. Mr. Scott is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. I appreciate your 
holding the hearing in Cincinnati. It shows that there are 
things that we can work on and agree on. Unfortunately, there 
are also things that we disagree on.
    I would ask Dr. Seigel, following up on that last question, 
I don't think you got to the end of your testimony. Have 
medical organizations taken a position on mandatory notice and 
consent laws?
    Dr. Seigel. Yes. Actually, PRCH is in agreement with 
leading medical organizations on this issue. The AMA, for 
example, the American College of Obstetrics and Gynecology, the 
American College of Physicians, and the American Public Health 
Association all oppose mandatory parental involvement laws 
because they endanger the health of adolescents and impose 
undue burdens on physicians.
    Additionally, the American Academy of Pediatrics and the 
Society for Adolescent Medicine have opposed similar 
legislation entitled the Child Custody Protection Act, which is 
currently under consideration in the Senate as S. 8, because of 
the harm that it may cause adolescents.
    Mr. Scott. And so, on balance, they have judged that 
children would be more endangered with the passage of this bill 
than helped?
    Dr. Seigel. Correct. However, all----
    Mr. Scott. Do they take the position that it is a good idea 
to encourage the children to seek parental involvement?
    Dr. Seigel. Not only do all of those organizations 
encourage that appropriate counseling for young women include 
them divulging the pregnancy to the parents, but also they have 
pushed us to start teaching it in medical schools, to our 
residents, to our fellows, in all of our programs throughout 
the country. This is the standard of care of medicine as it 
should be in this country right now, and to do anything less, 
in my view, is just not appropriate.
    Mr. Scott. Thank you. Professor Myers, you mentioned that 
you don't need a health exception in this bill. It has no 
health exception. Is your----
    Mr. Myers. Well, it has a variety of exceptions that I 
think are crafted to protect----
    Mr. Scott. Does it have a health exception?
    Mr. Myers. It has the--there is an exception for--there is 
a judicial bypass in the minor's home State----
    Mr. Scott. Does it have a health exception?
    Mr. Myers. It has an exception for the life situation and 
in the sexual abuse and neglect situation.
    Mr. Scott. It has a partial life exception. Does it have a 
health exception? Well, let me just say it has no health 
exception. Can you cite any case that supports the contention 
that you do not need a health exception in this bill? Carhart 
v. Stenberg would suggest that you need a health exception. Can 
you cite a case that would suggest that you do not need a 
health exception?
    Mr. Myers. I think, as I mentioned earlier, I think the 
understanding of Stenberg was based on the Court's view that 
the law there actually prohibited abortions in certain 
situations because of the definition.
    Mr. Scott. So you are citing----
    Mr. Myers. So in that situation----
    Mr. Scott. You are citing, Stenberg, then, as the case that 
we should rely on?
    Mr. Myers. No. What I am saying is it required a health 
exception because the law was an actual obstacle to a woman 
getting an abortion.
    Mr. Scott. Can you cite a case that we can review--can you 
cite the name of a case that we can review to lead us to the 
conclusion that you don't need a health exception in this bill?
    Mr. Myers. I think the----
    Mr. Scott. The name of a case.
    Mr. Myers. The case that I think has the best understanding 
of the Supreme Court's case law in this area is the Fourth 
Circuit cases, Blueridge?
    Ms. Collett. Hodgson v. Minnesota, Representative Scott, is 
a United States Supreme Court case where there was no health 
exception and it involves a parental notice act.
    Mr. Scott. Thank you. Ms. Collett, in two States, adjoining 
States, I guess Washington and Oregon, neither of which has any 
parental involvement law, if you go from one to the other, does 
this bill require parental notification?
    Ms. Collett. Yes, it will.
    Mr. Scott. Even though neither State has that provision?
    Ms. Collett. That is correct.
    Mr. Scott. Professor Myers, if the Commonwealth of Virginia 
feels that casino gambling is immoral, under the idea and the 
principles in this bill, could we pass legislation prohibiting 
these buses from gathering up people and transporting them 
across State lines to go to Atlantic City, New Jersey to gamble 
in a casino?
    Mr. Myers. I think it is the sort of thing, and I teach 
conflicts of law, as happens all the time, where States as long 
as they have a proper interest----
    Mr. Scott. Is the answer yes?
    Mr. Myers.--in protecting their residents have an interest 
in applying their law----
    Mr. Scott. I am almost out of time. Do you feel that is a 
yes?
    Mr. Myers. Well, I think that one is this is a Federal law, 
so whether the State of Virginia has that authority is really 
immaterial. I think that they do have the right to legislate--
--
    Mr. Scott. Let me ask a couple of other quick questions. 
Under the bill, is it legal for the teenager to cross State 
lines by herself? That would not be a violation of this bill, 
is that right?
    Mr. Myers. The law doesn't focus on the minor.
    Mr. Scott. Would it be legal to transport someone to the 
State line, without crossing the State line, and then dropping 
the child off at the State line? Would that be legal under the 
bill?
    Mr. Myers. It turns on transporting somebody across the 
State lines for the----
    Mr. Scott. Would an older sister----
    Mr. Myers.--purpose of evading their home State's law.
    Mr. Scott. Would an older sister be vulnerable under this 
act?
    Mr. Myers. It applies to persons who have the proper mens 
rea who are trying to transport a minor for purposes of evading 
her home State's law, so yes, it applies----
    Mr. Scott. That would include an older sister?
    Mr. Myers.--it applies to--yes, it doesn't have an 
exception for----
    Mr. Scott. And finally, if you catch a taxicab and in the 
conversation in the back make it clear that you are going from 
Kansas City, Kansas, to Kansas City, Missouri, for the purpose 
of getting an abortion and evading some parental consent laws, 
is the taxicab driver vulnerable under the bill?
    Mr. Myers. I think it is really unrealistic to think that 
they would fall within the statutory requirement of knowingly 
transporting with the intent of abridging the rights of 
parents. So if you actually had a taxicab service that was set 
up for the purpose of evading the State law----
    Mr. Scott. So if you had a taxicab driver----
    Mr. Myers.--fine, but in this situation----
    Mr. Scott.--who listens to the conversation----
    Mr. Myers.--that you describe, I don't think that would 
fall within the definition of this statute.
    Mr. Scott. If you listen to the conversation where the 
teenager says, ``Please take me to the abortion clinic. I can't 
get my parents' permission here. Take me across State lines,'' 
the taxicab driver would or would not be vulnerable?
    Mr. Myers. I don't think they would have the requisite 
intent under the statute.
    Mr. Chabot. The gentleman's time has expired, and I think 
that gentleman asked that same probing question in the last 
hearing and I think it was basically that the principal 
objective of the taxicab driver is to receive a fare, not to 
transport somebody for the purpose of getting an abortion, and 
so, therefore, probably wouldn't----
    Mr. Nadler. Mr. Chairman, if I may comment, with all due 
respect to Professor Myers, the moment that taxicab driver 
knows the purpose of the trip, if he is crossing the State 
line, he is doing it with knowledge and intent. He would 
clearly be vulnerable under this Act.
    Mr. Chabot. I would encourage taxicab drivers not to do 
that. [Laughter.]
    But if they did, we can see if they would be prosecuted or 
not.
    The gentleman from Iowa, Mr. King, is recognized for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman. I want to thank the 
witnesses for their testimony today and I regret that there was 
a large part of it that I missed. I have been able to review 
some of the testimony and I do know I would say, Mrs. Carroll, 
how difficult that is to come before this Committee and give 
this testimony.
    I am curious, with all that you have been through as a 
family, have you had any contact with the family of the father, 
either the father or his family, since this time?
    Mrs. Carroll. No. They never contacted me to check on my 
daughter at all. She has spoken with him--the boy at school.
    Mr. King. Does that continue?
    Mrs. Carroll. Yes, at school.
    Mr. King. Thank you. And Dr. Seigel, your testimony focused 
to some degree on the burdens imposed upon people that are 
seeking an abortion, that being a professional opinion of you 
as a doctor. I am wondering if that burden in transportation or 
finances or delay, that being a professional opinion, what you 
might have is a professional opinion with regard to any 
psychological damage that might be caused to the young lady who 
got the abortion and to the people who carry the guilt who 
carried her across the State line.
    Dr. Seigel. Well, first, I am not here giving my personal 
opinions. I am speaking on behalf of PRCH as well as the other 
organizations that I am a leader in, which is the American 
Academy of Pediatrics. So my concerns here are not just about 
the health concerns and health risks to the young woman who is 
having an abortion, but also the psychological risks, and that 
is one of the reasons I am concerned that there is inadequate 
language in CIANA to protect the psychological health as well 
as the physical health of adolescents, and that is one of the 
reasons we are opposed to CIANA.
    I am concerned because everyone involved in the care of 
this young woman becomes criminalized--the family who helps 
this adolescent, the physician who helps this adolescent, as 
was mentioned earlier, not just an older sibling, but a 
grandmother.
    Mr. King. Doctor, from a personal and human perspective, do 
you believe that the people who organized and transported this 
woman's daughter across the State line. circumvented the 
parental responsibility, do you think they should carry any 
moral guilt?
    Dr. Seigel. I believe, in addition, the medical community 
let Mrs. Carroll and her family down, as I--unfortunately, I 
don't think you were here, but I did say that. I believe that 
we are all justifiably at fault. The medical community standard 
of care is to make sure that an adolescent is consenting to 
whatever she does and get an adult involved. However, I do not 
believe that the government can mandate good family 
communication.
    Mr. King. Do you recognize that Mrs. Carroll's daughter 
carries guilt, as well?
    Dr. Seigel. Absolutely, and I, as a physician, am 
embarrassed----
    Mr. King. And when you weigh that psychological burden that 
she will carry against the inconvenience for a young co-ed on a 
college campus that you allege would be brought about by this 
legislation, and then your testimony that college students 
would be negatively affected when seeking an abortion at a 
clinic, and you weigh that against, in your professional 
opinion, the inconvenience as compared to the guilt?
    Dr. Seigel. I wouldn't characterize this as an 
inconvenience. If we are talking about later-term abortions, we 
are talking about significant medical risks. So I would not--I 
think it is a mischaracterization to call it an inconvenience.
    Mr. King. Thank you, Dr. Seigel, and I would direct my next 
question, then, to Professor Myers. Professor Myers, I would 
ask if you could address the subject matter for this Committee 
and for the record with regard to three rights that are in our 
Declaration--life, liberty, and the pursuit of happiness. Could 
you define as to whether they are co-equal rights or 
prioritized rights?
    Mr. Myers. I think that, really, the right to life is the 
basic objective. If you don't have that, you really don't have 
any other--any right at all, so I think that that is really the 
fundamental right. This law is designed to protect that in a 
sense kind of indirectly by having parents involved in 
important life decisions of their minor children. It seems to 
me that it is entirely supportive of that core right.
    Mr. King. I thank you, Dr. Myers, and I just conclude with 
this, that it is my opinion that they are prioritized rights, 
that the right to life is paramount over anyone's liberty and 
no life should be taken because someone else wanted to exercise 
their liberty, and neither should someone's pursuit of 
happiness infringe upon the liberty of anyone else. So I will 
argue that there are prioritized rights founded by our Founders 
and I think that is what we need to keep in mind in this and I 
fully support this bill.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    Mr. Nadler. Mr. Chairman?
    Mr. Chabot. Yes, the gentleman from New York?
    Mr. Nadler. I just want to point out briefly, especially 
for Congressman King's benefit, who wasn't here earlier, that 
in questioning earlier, it was conceded essentially by 
everybody that the conduct of the people involved with Mrs. 
Carroll's daughter was not only unconscionable, but violated 
four or five different criminal laws in existing law.
    Mr. Chabot. All right. I want to thank the panel for coming 
here this afternoon. I think this testimony was very helpful. 
We want to, especially, Mrs. Carroll, thank you for appearing 
here this afternoon and we are very sorry for the experience 
that you and your family had in this matter. So again, we want 
to thank everyone for being here.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 3:49 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Steve Chabot, a Representative in 
  Congress from the State of Ohio, and Chairman, Subcommittee on the 
                              Constitution

    Good afternoon. I'd like to thank everyone for being here for this 
very important legislative hearing. Today, the House Constitution 
Subcommittee will examine H.R. 748, the ``Child Interstate Abortion 
Notification Act,'' commonly known as SEE-ANNA (``CIANA''), which was 
recently introduced by my colleague, the distinguished gentlewoman from 
Florida, Congresswoman Ileana Ros-Lehtinen. I would like to thank 
Congresswoman Ros-Lehtinen for her leadership on this issue.
    CIANA's predecessor, the Child Custody Protection Act (CCPA) also 
introduced by Congresswoman Ros-Lehtinen, received broad support, 
passing the House on three separate occasions, including the 105th, 
106th, and 107th Congresses.
    This hearing is the first step in ensuring that CIANA not only 
passes the House in the 109th Congress, but is enacted into law.
    We have an expert panel with us today, and I would like to thank 
them for taking the time to share their knowledge and expertise with 
us.
    Obtaining an abortion is a life-altering event, as we have heard 
and seen on numerous occasions. The medical, physical, and emotional 
impact on women can be long lasting.
    CIANA would ensure that young girls who are seeking an abortion 
receive the care and support they need by enforcing existing state 
parental notification laws and providing for a federal notification law 
that protects parental rights when a minor crosses state lines into a 
state without a notification law.
    CIANA would make it a federal offense to cause the circumvention of 
a valid state parental consent or notification law by knowingly 
transporting a minor across a state line with the intent that she 
obtain an abortion. In addition, CIANA builds on the Child Custody 
Protection Act by also requiring that an abortion provider in a state 
without a parental involvement law notify a parent, or if necessary a 
legal guardian, before performing an abortion on a minor girl who is a 
resident of a different state.
    This requirement would be applicable unless the minor has already 
received authorization from a judge in her home state pursuant to a 
``judicial bypass'' procedure, or unless she falls into one of the 
carefully drafted exceptions to cover cases of abuse or medical 
emergencies.
    Statistics show that approximately 80% of the public favors 
parental notification laws. Forty-four states have enacted some form of 
a parental involvement statute. Twenty-three of these states currently 
enforce statutes that require the consent or notification of at least 
one parent or court authorization before a young girl can obtain an 
abortion.
    Such laws reflect widespread agreement that the parents of a 
pregnant minor are best suited to provide counsel, guidance, and 
support as she decides whether to continue her pregnancy or to undergo 
an abortion.
    Despite widespread support for parental involvement laws and clear 
public policy considerations justifying them, substantial evidence 
exists that such laws are regularly evaded by individuals who transport 
minors to abortion providers in states that do not have parental 
notification or consent laws.
    Confused and frightened young girls are routinely assisted by 
adults in obtaining abortions and are encouraged to avoid parental 
involvement by crossing state lines. Often, these girls are guided by 
those who do not share the love and affection that most parents have 
for their children. Personal accounts indicate that sexual predators 
recognize the advantage they have over their victims and use this 
influence to encourage abortions in order to eliminate critical 
evidence of their criminal conduct, and, in turn, allowing the abuse to 
continue undetected.
    Furthermore, when parents are not involved in the abortion 
decisions of a child, the risks to the child's health significantly 
increase. Parental involvement will ensure that parents have the 
opportunity to provide abortion providers with the minor's complete 
medical history and necessary information prior to the performance of 
an abortion, information that may have life or death consequences for 
the minor. Parental involvement in the after care of a minor's abortion 
procedure is also critical in preventing or curtailing complications 
such as infection, perforation, or depression, which if left untreated 
may be fatal.
    Public policy is clear that parents should be involved in decisions 
that their daughters make regarding abortion. CIANA will assist in 
enforcing existing parental involvement laws that meet the relevant 
constitutional criteria and will provide for parental involvement when 
minors cross state lines to have abortions in states without parental 
involvement laws. The safety of young girls and the rights of parents 
demand no less.
    Again, I would like to thank our witnesses for being here today.

                              ----------                              

Prepared Statement of the Honorable Jerrold Nadler, a Representative in 
 Congress From the State of New York, and Ranking Member, Subcommittee 
                          on the Constitution

    Thank you, Mr. Chairman.
    When we last considered this legislation, I honestly did not 
believe that the authors could possibly come up with a bill that would 
be more dangerous, more destructive, of the well being and the rights 
of young women.
    I am humbled to admit that I suffered from a paucity of imagination 
that clearly does not afflict some on the other side of the aisle. I am 
truly stunned by this latest crazy quilt of restrictions which can have 
obviously has but one purpose: to impede the practice of medicine, to 
ensure that young women will have as few options as possible, and to 
teach those states, like mine, that do not believe the best way to 
promote adolescent health, and deal with the very real problems these 
young women often experience, is with draconian laws that prevent 
doctors and caring responsible adults from helping these young women 
who may have nowhere else to turn.
    Often, that adult is a grandparent, or a sibling, or a member of 
the clergy. In some cases, the young woman may not be able to go to her 
parents. Indeed, sometimes, the parents may pose a threat to the life 
and health of the young woman. That's what happened to Spring Adams, a 
13 year old from Idaho. She was shot to death by her father after he 
found out that she planned to terminate a pregnancy--one he caused by 
his acts of incest.
    I know that some of my colleagues might not see a problem forcing a 
doctor to ring Mr. Adams' doorbell to tell him they are planning to 
perform an abortion on his daughter. There has been longstanding and 
vigorous opposition to laws, including the Freedom of Access to Clinic 
Entrances Act, which aim to protect doctors and their patients from 
violent fanatics.
    This bill also uses a narrow definition of medical emergency that 
seems to have been lifted from one of Alberto Gonzalez's infamous 
torture memos. ``The prohibition of subsection (a) does not apply if 
the abortion was necessary to save the life of the minor because her 
life was endangered by a physical disorder, physical injury, or 
physical illness, including a life endangering physical condition 
caused by or arising from the pregnancy itself.'' That clearly falls 
far short of the Supreme Court's requirement that any restriction on 
the right to choose must have an explicit exception to protect the life 
or health of the woman. There are many things far short of death that 
threaten a young woman. She deserves prompt and professional medical 
care, and the Constitution still protects her right to receive that 
care.
    Congress should not be tempted to play doctor. It is always bad 
medicine for women.
    We want to encourage families to work together to face difficult 
situations, and we want to provide young women facing these life 
altering decisions with all they help we can. In an ideal world, 
loving, supportive, and understanding families would join together to 
face these challenges. That's what happens in the majority of cases, 
law or no law.
    But we do not live in a perfect world. Some parents are violent. 
Some parents are rapists. Some young people can turn only to their 
clergy, to a grandparent, a sibling, or some other trusted adult. We 
should not turn these people into criminals simply because they are 
trying to help a young woman in a dire situation.
    This bill is the wrong way to deal with a very real problem.
    I want to join the Chairman in welcoming our witnesses, and I look 
forward to their testimony.

                              ----------                              

  Prepared Statement of the Honorable Steve King, a Representative in 
                    Congress from the State of Iowa

    Thank you, Chairman Chabot, for holding this hearing today, and to 
our witnesses for sharing their experiences and knowledge with us. The 
Child Interstate Abortion Notification Act is necessary to uphold state 
parental consent and notification laws.
    A vast majority of Americans support parental involvement and 
notification laws, which protect parents' roles when their daughters 
are making such an important life decision as whether to abort their 
pregnancies. Based on this support, 44 states have passed parental 
involvement statutes. Twenty-three of those states require that a 
parent either be notified of or consent to their minor daughter's 
abortion. Despite all this public effort, these laws are regularly 
evaded by adults who transport children across state lines to obtain 
abortions in states without parental involvement laws. In many of these 
cases, the adult doing the transportation is a man who has sexually 
assaulted the minor, and the abortion a cover-up for his crime.
    Even the most vocal of abortion supporters recognize the 
psychological trauma abortion causes women. Coined by President 
Clinton, abortion advocates everywhere now use the tagline ``safe, 
legal, and rare.'' Senator Clinton even acknowledges that abortion is a 
sad and tragic choice. For teenagers, unexpected pregnancy is most 
often a panic-inducing situation. To make a decision that will so 
greatly impact the rest of their lives, girls need parental support and 
advice. States, by and large, have recognized this. They need our help 
to be able to realize their goal.
    Thank you, Mr. Chairman.

                              ----------                              

      Prepared Statement of the Honorable Ileana Ros-Lehtinen, a 
          Representative in Congress from the State of Florida

    I would like to begin by commending Chairman Chabot for his 
outstanding leadership, and especially for holding this important 
hearing. Mr. Chairman, thank you for considering this vital piece of 
legislation.
    Abortion is perhaps one of the most life-altering and life-
threatening of procedures. It leaves lasting medical, emotional, and 
psychological consequences.
    Although Roe v. Wade legalized abortion in 1973, it did not 
legalize the right for persons other than a parent or a guardian to 
decide what is best for a child. Nor did it legalize the right for 
strangers to place our children in a dangerous or potentially fatal 
situation.
    In our society, there are many rules and regulations aimed at 
ensuring the safety of our nation's youth through parental guidance. At 
my alma mater, Southwest High School in Miami, as in many of our 
schools, a child cannot be given aspirin to relieve a simple headache 
or cramp, unless the school has been given consent by at least one 
parent or legal guardian.
    Most schools, require permission to take minors on field trips and, 
in many schools, parents have the ability to decide whether or not to 
enroll their children in sexual education classes. Every one of these 
principles emphasize that parents should be involved in decisions that 
can seriously affect their children. The decision of whether or not to 
obtain an abortion, a life-altering, potentially fatal and serious 
medical procedure, should be no exception to these rules.
    Designed to ensure children's safety, cosmetic ear piercing 
requires parental consent for fear that girls may pick up dangerous 
infections. Who ensures safety for young girls who are ill advised to 
disobey state laws and are taken to undergo a highly dangerous 
procedure that may tragically result in death or severe medical 
complications?
    As a mother of two teenage daughters, I realize the profound impact 
that a positive relationship with one's primary caregiver has on the 
development of our most important resource, our young people. I believe 
that I have a right to know what is going on in my daughters' lives, 
especially with regard to a potentially life threatening medical 
procedure. We must ensure that our most precious natural resource, our 
children, are protected and afforded every opportunity to succeed.
    My legislation, the Child Interstate Abortion Notification Act will 
incorporate all of the provisions previously contained in the Child 
Custody Protection Act (H.R. 1755 in the 108th Congress), a bill that 
the House has passed in 1998, 1999, and 2002, making it a Federal 
offense to transport a minor across state lines to circumvent that 
state's abortion parental notification laws.
    In addition, the bill will require that in a state without a 
parental notification requirement, abortion providers are required to 
notify a parent. It will protect minors from exploitation from the 
abortion industry, promote strong family ties, and will help foster 
respect for state laws.
    This historic legislation will put an end to the abortion clinics 
and family planning organizations that exploit young, vulnerable girls 
by luring them to recklessly disobey state laws.
    I am proud to have introduced this critical legislation less than 
one month ago with the bipartisan support of 105 original cosponsors. I 
am hopeful that it will pass again.
    About 80% of the public favors parental notification laws, and over 
30 states have enacted such laws. Yet, these laws are often evaded by 
interstate transportation of minors, often openly encouraged in 
advertising by abortion providers.
    Parental consent or parental notification laws may vary from state 
to state, but they are all made with the same purpose in mind: to 
protect frightened and confused adolescent girls from harm.
    I thank you, Mr. Chairman, for considering this vital piece of 
legislation, and I hope that this subcommittee will support H.R. 748 
for the purpose of upholding safety laws designed by individual states; 
a bill that will protect parents' rights to be involved in decisions 
involving their minor children, will work to strengthen the bonds of 
America's families, and most importantly will ensure that America's 
youth have a safer, healthier, and brighter future.

                              ----------                              

     Prepared Statement of Dr. John C. Harrison, Professor of Law, 
                         University of Virginia

    The Subcommittee has asked that I give my views concerning 
Congress' power to enact Section 2 of H.R. 748, the Child Interstate 
Abortion Notification Act. \1\
---------------------------------------------------------------------------
    \1\ This statement is substantially identical to the statements I 
provided the Subcommittee with respect to H.R. 1755 in the 108th 
Congress, H.R. 476 in the 107th Congress, and H.R. 1218 in the 106th 
Congress.
---------------------------------------------------------------------------
    The proposed legislation would make it a federal crime knowingly to 
transport across a state line ``an individual who has not attained the 
age of 18 years . . . with the intent that such individual obtain an 
abortion, and thereby in fact [to abridge] the right of a parent under 
a law requiring parental involvement in a minor's abortion decision, in 
force in the State where the individual resides.''
    Section 2 of H.R. 748 is a regulation of commerce among the several 
States. Commerce, as that term is used in the Constitution, includes 
travel whether or not that travel is for reasons of business. E.g., 
Caminetti v. United States, 242 U.S. 470 (1917). To transport another 
person across state lines is to engage in commerce among the States. 
There is thus no need to address the scope of Congress' power to 
regulate activity that is not, but that affects, commerce among the 
States, see, e.g., A.L.A. Schechter Poultry Corp. v. United States, 295 
U.S. 495 (1935); Wickard v. Filburn, 317 U.S. 111 (1942); Katzenbach v. 
McClung, 379 U.S. 294 (1964); United States v. Lopez, 514 U.S. 549 
(1995).
    Under the Supreme Court's current doctrine, Congress can adopt 
rules concerning interstate commerce, such as this one, for reasons 
related primarily to local activity rather than commerce itself. United 
States v. Darby, 312 U.S. 100 (1941). \2\Hence even if H.R. 748 
reflected a substantive congressional policy concerning abortion and 
domestic relations it would be a valid exercise of the commerce power 
because it is a regulation of interstate commerce.
---------------------------------------------------------------------------
    \2\ Darby overruled Hammer v. Dagenhart, 247 U.S. 251 (1918), which 
held unconstitutional a ban on interstate shipment of goods made with 
child labor. The Court in Hammer found that the statute was in excess 
of the commerce power, even though it regulated only interstate 
transportation, because its purpose was related to production, which is 
a local activity.
---------------------------------------------------------------------------
    Even under the more limited view of the commerce power that has 
prevailed in the past, this part of H.R. 748 would be within Congress' 
power. This legislation, unlike the child labor statute at issue in 
Hammer v. Dagenhart, does not rest primarily on a congressional policy 
independent of that of the State that has primary jurisdiction to 
regulate the subject matter involved. Rather, in legislation like this 
Congress would be seeking to ensure that the laws of the State 
primarily concerned, the State in which the minor resides, are complied 
with. In doing so Congress would be dealing with a problem that arises 
from the federal union, not making its own decisions concerning local 
matters such as domestic relations or abortion.
    H.R. 748 in this regard resembles the Webb-Kenyon Act, Act of March 
1, 1913, 37 Stat. 699, which dealt with a problem posed by then-current 
dormant commerce clause doctrine for States with strong prohibition 
laws. Such States, under Leisy v. Hardin, 135 U.S. 100 (1890), were 
limited in their power to regulate liquor that was shipped from out of 
state. Under the Webb-Kenyon Act, liquor was ``deprived of its 
interstate character'' (to use the old terminology) and its 
introduction into a dry State prohibited. The Court upheld the Webb-
Kenyon Act in Clark Distilling Company v. Western Maryland Railway 
Company and State of West Virginia, 242 U.S. 311 (1917). \3\
---------------------------------------------------------------------------
    \3\ The rule of the Webb-Kenyon Act currently appears in Section 2 
of the Twenty-First Amendment.
---------------------------------------------------------------------------
    This statement is concerned with the Commerce Clause, not with the 
limitations on the regulation of abortion that the Court has found in 
the Due Process Clauses of the Fifth and Fourteenth Amendments as they 
may apply to Section 2 of H.R. 748. That focus is appropriate, I think, 
because this aspect of the legislation does not raise any questions 
concerning the permissible regulation of abortion that are independent 
of the state laws that it is designed to effectuate. To the extent that 
a state rule is inconsistent with the Court's doctrine, that rule is 
ineffective and this bill would not make it effective. Hence it is 
unnecessary to ask, for example, whether subsection (b)(1) of proposed 
section 2431 of title 18 would constitute an adequate exception to a 
rule regulating abortion. Because constitutional limits on the States' 
regulatory authority are in effect incorporated into proposed Section 
2431, subsection (b)(1) is in addition to any exceptions required by 
the Court's doctrine.
    This testimony on legal issues associated with H.R. 748 is provided 
to the Subcommittee as a public service. It represents my own views and 
is not presented on behalf of any client or my employer, the University 
of Virginia.

 ABORTION FORM FOR ASHLEY CARROLL, SIGNED BY HER DOCTOR, DR. KAJI AND 
MATERIALS RELATED TO DR. KAJI AND BRIGHAN CLINICS SUBMITTED BY CHAIRMAN 
                              STEVE CHABOT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
